<html>
<title> - [H.A.S.C. No. 112-75] NATIONAL GUARD AND RESERVE COMPONENT ACQUISITION AND MODERNIZATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-75] 

                       NATIONAL GUARD AND RESERVE 

                         COMPONENT ACQUISITION 

                           AND MODERNIZATION 

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 12, 2011


                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

71-446 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
                                     
  




















              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHLEEN C. HOCHUL, New York
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, October 12, 2011, National Guard and Reserve Component 
  Acquisition and Modernization..................................     1

Appendix:

Wednesday, October 12, 2011......................................    31
                              ----------                              

                      WEDNESDAY, OCTOBER 12, 2011
   NATIONAL GUARD AND RESERVE COMPONENT ACQUISITION AND MODERNIZATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3

                               WITNESSES

Carpenter, MG Raymond W., USA, Acting Director, Army National 
  Guard..........................................................     7
Stenner, Lt. Gen. Charles E., Jr., USAF, Chief, U.S. Air Force 
  Reserve........................................................    11
Stultz, LTG Jack C., USA, Chief, U.S. Army Reserve...............     4
Wyatt, Lt. Gen. Harry M., III, USAF, Director, Air National Guard     9

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    35
    Carpenter, MG Raymond W......................................    72
    Reyes, Hon. Silvestre........................................    38
    Stenner, Lt. Gen. Charles E., Jr.............................   105
    Stultz, LTG Jack C...........................................    40
    Wyatt, Lt. Gen. Harry M., III................................    97

Documents Submitted for the Record:

    Chart of ``Army Reserve: Indispensable Capabilities of the 
      Operational Force,'' Submitted by LTG Jack C. Stultz.......   117
    ``Dip Chart'' Showing U.S. Army Reserve End Strength, Fiscal 
      Years 2002 through 2011, Submitted by LTG Jack C. Stultz...   118

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................   121
    Mrs. Roby....................................................   129
   NATIONAL GUARD AND RESERVE COMPONENT ACQUISITION AND MODERNIZATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                       Washington, DC, Wednesday, October 12, 2011.
    The subcommittee met, pursuant to call, at 2:00 p.m. in 
room 2212, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. Our subcommittee will come to order.
    Today, the Tactical Air and Land Forces Subcommittee meets 
to receive an update on the equipment status and requirements 
of the Army and Air Force National Guard and Reserve 
Components.
    Given the significant change in the budget outlook for 
fiscal year 2012 and beyond, we believe it necessary to obtain 
the current views of the Guard and Reserve senior leaders for 
the potential impact on their programs. We will also hear from 
the military services in two subsequent hearings later in the 
month.
    We welcome our distinguished panel of witnesses: Major 
General Raymond Carpenter, the Acting Deputy Director of the 
Army National Guard; Lieutenant General Harry Wyatt, Director 
of the Air National Guard; Lieutenant General Jack Stultz, 
Chief, U.S. Army Reserve; and Lieutenant General Charles 
Stenner, Jr., Chief, U.S. Air Force Reserves.
    Major reductions in the Federal budget need to be an 
element of correcting the Federal deficit. The Department of 
Defense must share in a fair and balanced way in those 
reductions. That process is already taking place under the 
Budget Control Act of 2011, with nearly $500 billion in cuts 
planned for DOD [Department of Defense] over the next 10 years. 
However, cuts beyond that, up to approximately $1 trillion over 
10 years, are possible under what Secretary Panetta called the 
``doomsday mechanism'' sequestration provision of the Budget 
Control Act.
    Secretary Panetta and Director Lew of the White House 
Office of Management and Budget have stated that budget cuts to 
the Department of Defense as a result of the sequestration 
provision ``could impose a significant risk to national 
security. DOD would most certainly be forced to furlough large 
numbers of civilian workers. Training would have to be 
curtailed, the force reduced, and purchases of weapons systems 
would have to be cut dramatically.''
    Former Deputy Secretary of Defense William Lynn recently 
stated that ``the imposition of the sequestration provision of 
the Budget Control Act on our Armed Forces could be 
catastrophic. Sequestration would give us the smallest Army and 
Marine Corps in decades, the smallest Air Force in history, and 
the smallest Navy since McKinley was President. The debate is 
not whether sequestration would wound our military; it is about 
whether sequestration is equivalent to shooting ourselves in 
the foot or the head.''
    Against the backdrop of the Budget Control Act for 2011, 
today's hearing is to get an assessment of the modernization 
needs and equipping challenges of the Army National Guard, Air 
National Guard, Army Reserve, and Air Force Reserve. We 
recognize the Department is making major improvements and 
progress in providing adequate funding to equip the National 
Guard and Reserve Components to enhance its role as an 
operational reserve. Sustaining this funding, however, will 
continue to be a major issue, given the acute national economic 
challenges we currently face.
    During the April hearing, the subcommittee learned the 
importance of equipping and resourcing the Reserve Component as 
an ``operational reserve'' rather than the Cold War model of a 
strategic reserve. We also heard our witnesses testify that, 
since 2001, the Department has made significant strides in 
providing adequate resources to equip the Reserve Component as 
an operational reserve.
    The Guard and Reserve Components have proven to be an 
invaluable asset during Operation Enduring Freedom, Operation 
Iraqi Freedom, and Operation New Dawn. These past 10 years have 
justified the need for an operational Reserve Component force 
that must be adequately manned, trained, and equipped.
    Since September of 2001, almost 600,000 guardsmen and 
reservists have deployed in support of combat operations, 
representing 40 percent of the total Reserve force of 1.4 
million troops. All 34 Army National Guard Component brigades 
have deployed to either Iraq or Afghanistan, and more than half 
of the force has combat experience. There are reservists 
operating in over 100 countries.
    Over the past decade, the majority of modernization funding 
for the Reserve Components has come from supplemental overseas 
contingency operation funding requests, meaning funding that is 
not part of the base budget request. What happens when these 
so-called ``OCO'' [Overseas Contingency Operation] requests are 
no longer requested or funded? How will we continue to sustain 
the operational reserve and equip them for their missions?
    Congress has not hesitated in trying to address the 
equipment-readiness needs that we have noted in many Guard and 
Reserve units over the years. National Guard and Reserve 
Component procurement from fiscal year 2004 to fiscal year 2011 
has totaled approximately $47 billion, averaging almost $6 
billion per year. Since 2004, Congress has authorized 
approximately $7.7 billion in the National Guard and Reserve 
Equipment Account. The National Guard and Reserve Equipment 
Account helps maintain combat capability and should help to 
guarantee that equipment is relevant and upgraded in a timely 
manner. This funding has enjoyed sustained bipartisan support, 
both on this committee and throughout Congress.
    The Department of Defense and Congress have made 
substantial progress in terms of adequate funding for and 
reorganization of the Reserve Components. But I am concerned 
that these anticipated budgetary challenges we currently face 
could potentially negatively impact the current operational 
status of the Guard and Reserves.
    The ability to maintain a sustainable operational Reserve 
force with sufficient operational capability is predicated on 
having sufficient manpower and adequate resources. I want to 
express how much the subcommittee appreciates the contribution 
of the Guard and Reserve Components and want to recognize that 
they are maintained at a fraction of the cost of the regular 
military. We, as a nation, clearly cannot fight without them, 
because there is no way a 19-year-old can have the skill set 
and experience of a 39-year-old.
    Before we begin, I would like to welcome--well, the 
subcommittee's newest member is not here, but let me tell you 
that we are very pleased to have Kathy Hochul from New York. 
And when she comes, we will welcome her officially to our 
subcommittee.
    I would like now to turn to my good friend and colleague 
from Texas, Silvestre Reyes, for any comments that he might 
like to make.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 35.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman.
    And I would like to add my welcome to the panel and most 
especially to the three young men in the front row that 
recently returned from Afghanistan. We appreciate your service, 
and thank you for joining us here today.
    Mr. Chairman, this past April, the subcommittee received 
testimony from the leadership of the Army and Air Force Reserve 
Components. Today, we have these same leaders back for an 
update on the equipment needs of the Army and Air Force 
Reserve.
    During the April hearing, we heard that our Reserve 
Components remain as busy as ever; that the proposed FY [fiscal 
year] 2012 budget request would allow us to maintain the high-
quality Reserve forces that we have today. We also heard that 
there were additional equipment needs for all of our Reserve 
Components. As a result, the full Armed Services Committee bill 
included $325 million in additional funding in the National 
Guard and Reserve Equipment Account. The House appropriators 
went even further, proposing an additional $1.5 billion for the 
same account, with the Senate appropriators proposing $500 
million.
    So the good news is that it appears that Congress will 
continue to provide support to the Guard and Reserve equipment 
needs over and above the budget request.
    On the other hand, however, the Budget Control Act of 2011 
will likely result in a substantial cut to the DOD base budget 
in FY 2012, perhaps as much as $26 billion. In addition, the 
Budget Control Act mandates approximately $450 billion in 
additional DOD cuts over 10 years when it is compared to the 
current DOD projections. And, finally, if the so-called ``super 
committee'' [Joint Select Committee on Deficit Reduction] does 
not reach its goal of $1.5 trillion in additional reductions, 
the DOD could face additional significant cuts starting in FY 
2013.
    However, at this point, we don't know how DOD will propose 
dealing with these budget restrictions. What we do know, 
however, is how similar cuts have been applied in the past. In 
previous budget reductions, DOD has often taken an across-the-
board approach to making cuts, rather than a more focused, more 
thoughtful path.
    Today, Mr. Chairman, I am concerned that if an across-the-
board, cookie-cutter approach to funding reductions takes place 
across the entire force, including our Reserve Components, they 
will incur significant damage. For example, if the Air Force 
further reduces fighter aircraft fleets in the Active Duty 
Force, will similar cuts flow down to the Reserve Components? 
If Active Duty Forces are reduced by DOD, are there plans to 
increase the size of the Reserve elements to compensate for 
those cuts? If DOD is seeking budget efficiencies, does it make 
sense to strategically expand some elements of the Reserve 
forces? I certainly hope that those questions are being asked 
as part of the ongoing DOD strategic review.
    The Nation has invested billions of dollars in additional 
funding to create the highly effective Reserve forces that we 
have today. As you mentioned, Mr. Chairman, they have been more 
active than ever in the history of this country. With this 
subcommittee adding additional billions to that investment 
every year, to us it just makes good and common sense.
    Beyond the immediate needs of our Reserve Components, I 
think it is also critical that we focus on the long term. If we 
get this right, we can end up with a high-quality Reserve force 
that also saves the Nation billions of dollars which in today's 
budget system desperately may be needed elsewhere.
    So I look forward to hearing our witnesses' thoughts on 
these major issues facing the entire DOD, but in particular the 
Reserve Component is most critical to get your input.
    With that, Mr. Chairman, I relinquish my time.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 38.]
    Mr. Bartlett. Thank you very much.
    We will proceed with the panel's testimony at this point. 
Without objection, all witnesses' prepared statements will be 
included in the hearing record.
    General Stultz, please proceed with your opening remarks.

 STATEMENT OF LTG JACK C. STULTZ, USA, CHIEF, U.S. ARMY RESERVE

    General Stultz. Thank you, Chairman Bartlett, Congressman 
Reyes, and other members of the committee. It is truly an honor 
to be here today before you to testify.
    And I didn't plan this or orchestrate this, but I did find 
out that one of my units was at Fort Dix, New Jersey, just 
arriving back from Afghanistan, and some of the soldiers asked 
if they could come down, just to sit in and listen to what goes 
on in the halls of Congress. And so I am going to use them as 
an illustration of why we have to do what we have to do, us and 
you together.
    I put one chart up here in front of you, and I think there 
are copies on your tables in front of you. But this question of 
whether or not we need an operational reserve to me is not a 
question. We have to have the Reserve Components as part of the 
operational force, and the reason we have to is because the 
Army is dependent on us.
    [The information referred to can be found in the Appendix 
on page 117.]
    General Stultz. The chart there shows you that, over time, 
as we have grown the Active Force from 480,000 to 569,000, we 
have continued to push more of the combat-support/service-
support capability into the Guard and Reserve. Today, as the 
chart shows, 83 percent of the transportation capability of the 
Army is in the Reserve; 75 percent of the engineer capability 
of the Army is in the Reserve; 70 percent of the medical 
capability is in the Reserve. And I can go on and on.
    So it is not a matter of, do we want to make the Reserve an 
operational force? We have to. We have to make it part of the 
operational force, because we know the end strength of the Army 
is going to come down. And as the end strength of the Active 
Army comes down, currently projected to come from 569 [569,000] 
to 520 [520,000], the Army is going to be even more dependent 
on the Guard and Reserve, which means we have to resource the 
Reserve Component as an operational force.
    And as you have indicated in your opening statements, it is 
a great return on investment. For what you would give us to 
invest in the Reserve, we give you a great return. These 
soldiers sitting behind me are evidence of that.
    The soldiers here are out of the 744th Engineer Company of 
Ogden, Utah. First Lieutenant Tovey, I first met him in 2006 
because I went out to Ogden, Utah, to welcome home this unit 
when they came back from Iraq. They had been out doing route 
clearance in the Anbar Province. They had taken a beating, lost 
soldiers in action, had a number of Purple Hearts that we 
handed out, Senator Bennett at the time and myself. And 
Sergeant Tovey helped me hand out coins. Sergeant Tovey got a 
direct commission to lieutenant. He is continuing his education 
today at Idaho State University, making a contribution back in 
his community, and now coming back from his deployment in 
Afghanistan.
    Sergeant Lissy, you look at him and you say, he is in a 
different uniform. Well, he is in a different uniform because 
during this deployment he was severely wounded, shot through 
the leg, and the bullet traveled up and almost through the 
spine. So he has been back home recovering, but he wants to 
keep serving his country.
    And then Corporal Pratt. Corporal Pratt hasn't been in the 
Army very long. He enlisted in February of 2009, finished his 
training in 2010, and now he is a combat veteran, back home in 
Utah.
    They have been doing route clearance. They remove the IEDs 
[Improvised Explosive Device]. They detect; they get out there. 
They are the lead in harm's way. The equipment they use in 
Afghanistan is the best the Army has. The training they got 
before they went to Afghanistan is the best the Army can give.
    The challenge we have is, that equipment is not setting 
back in Ogden, Utah. The equipment setting back in Ogden, Utah, 
is not modernized equipment. The training we do on that 
equipment back in Ogden, Utah, is not going to be the same 
level of training that we need to do for them to go back to 
Afghanistan or wherever we need them in the future.
    And the fact of the matter is, 75 percent of the Army's 
capability sets right here behind me and in the National Guard. 
It is not as if we have another force out there to go to if we 
don't give them the equipment and the training they need. And 
so what we together, you and I, have to do is we have to band 
together, use the investments you give us wisely, modernize 
where we have to modernize, train where we have to train. And, 
by God, we can't waste it; we can't afford to.
    Now, I have one other chart I would like to show you that I 
think is on your desk, and that is--this is what I call the 
``dip chart.'' And these soldiers here illustrate what is on 
this chart.
    [The information referred to can be found in the Appendix 
on page 118.]
    General Stultz. You see, when we first went to war in 2003, 
in the Army Reserve we were almost 10,000 over-strength in 
soldiers. We were fat and happy. But we weren't trained and 
ready. And as we started trying to call the soldiers to the 
front, we found out we had a lot of holes in our formation. We 
had a lot of medically unready soldiers, we had a lot of 
morally unready soldiers, we had a lot of soldiers on the rolls 
that we couldn't find. And then we had a lot of soldiers who 
said, ``This is not what I signed up for.''
    And so, by 2006, when I first came into this job, we were 
down to almost 20,000 under-strength. And we lost that 10,000 
over to 20,000 under while we recruited another 25,000 every 
year during that time period. So it wasn't just like we lost 
30,000 soldiers.
    And then we started growing back, and we grew back to over 
206,000 soldiers. And that was the Sergeant Lissys, the 
Corporal Pratts, the Lieutenant Toveys that joined our force. 
They joined our force to say, ``I want to go be something. I 
want to go do something.'' And they tell me three things: Give 
me some predictability, because I have another life and I have 
an employer or a school. Don't waste my time; train me, and 
train me to the standard I need to be trained to, and hold me 
to that standard. And, thirdly, use me. I didn't sign up to go 
back to strategic reserve that is one weekend a month, two 
weeks in the summer. I want to be utilized.
    And that is what we are building the Reserve of today 
around. And all we ask of Congress is, help us get the 
resources we need to maintain this operational readiness we 
have, to maintain that national treasure. Because if we don't, 
we will repeat that dip chart one more time because these young 
men won't stick with us, because they want to do something, 
they want to be something, they have too much invested, and 
they have too much pride in what they are doing. So my 
commitment to you, sir, is, the resources you give me I will 
invest in them, I won't waste.
    So I look forward to your questions. Thank you.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 40.]
    Mr. Bartlett. Thank you very much.
    General Carpenter.

  STATEMENT OF MG RAYMOND W. CARPENTER, USA, ACTING DIRECTOR, 
                      ARMY NATIONAL GUARD

    General Carpenter. Chairman Bartlett, Ranking Member Reyes, 
it is an honor and a privilege to again appear before this 
committee and represent the 360,000-plus soldiers of the Army 
National Guard.
    Currently, we have almost 40,000 Army guardsmen mobilized 
and deployed, and, as you know, more than half of that force 
has combat experience. The sacrifice of our soldiers, their 
families and employers has been tremendous, and they deserve 
our deepest gratitude.
    And I, too, would like to acknowledge the service of the 
three soldiers that General Stultz has accompanying him today. 
Coincidentally, I am an engineer officer. These three soldiers 
are engineers. I got to tell you, my connection with them as an 
engineer is a very strong connection. And I think those three 
soldiers could just as easily be from the Army National Guard, 
they could just as easily be from the Active Component, because 
we are seamless now as an Army.
    And so, thanks for your service, gentlemen.
    As I have noted before, the Army National Guard has been 
there from the start of this decade, from the very beginning. 
The New York National Guard was among the first on the scene at 
the World Trade Center on 9/11, as was the Maryland and 
Virginia Guard in the days after the Pentagon was attacked.
    Beginning with the 9/11 response, the Army National Guard 
has continued to shoulder our responsibilities in the overseas 
fight in Afghanistan and Iraq while simultaneously responding 
to events in the homeland, the largest of which was Hurricane 
Katrina. And the service of your Army National Guard continues.
    Let me illustrate with a snapshot in time, the weekend of 
August 26th through the 29th. During that weekend, the National 
Guard had more than 63,000 National Guardsmen on duty 
protecting this country at home and abroad. Over 47,500 
National Guardsmen were deployed in support of overseas 
contingency operations and partnership-building missions. 
Almost 10,000 members of the National Guard from 24 States were 
responding to then-Hurricane Irene. Another 1,000 National 
Guardsmen provided security on our Nation's southwest border, 
and an additional 4,000 National Guardsmen responded to a range 
of domestic emergencies across this country.
    The experience of the past decade has transformed the Army 
National Guard into an operational force, ``a national 
treasure,'' in the words of a recently retired four-star Active 
Duty general.
    As an operational force, the Army National Guard represents 
the best value for America. Force structure and military power 
can be sustained in the Army National Guard for a fraction of 
the regular cost. The Army National Guard is one-third of the 
total Army but accounts for approximately 10 percent of the 
total Army budget. Supporting capability in the Army National 
Guard is not only the right thing to do, it makes good business 
sense.
    The Army National Guard could not have evolved into the 
operational force without the support of Congress. Our Nation 
has invested over $37 billion in equipment for the Army 
National Guard in the past 6 years, much of that from the NGREA 
[National Guard and Reserve Equipment Appropriation] account. 
The delivery of that equipment has increased Army National 
Guard equipment-on-hand rates for critical dual-use equipment 
by 14 percent.
    Because the Army National Guard is a full partner with the 
Active Component, it is vital for the Guard to continue 
modernizing its equipment. Modernization and interoperability 
are essential for training during the Army National Guard pre-
mobilization periods and critical for deployments, as General 
Stultz has pointed out.
    I know this committee is interested in what has changed 
since our appearance here last spring. Simply put, it is the 
budget. Inside the Army, we have worked through multiple 
iterations of budgets based upon the latest proposed budget 
reduction. Secretary Panetta said on Tuesday that we would face 
difficult choices. He also cautioned that we should make budget 
choices based on strategy rather than expediency. He also 
suggested that modernization of weapons systems and maintenance 
programs were being examined as part of spending cuts and, 
specifically, contracts were being reviewed for savings.
    We in the Army Guard understand that future funding will be 
less than in the past, and, frankly, we are prepared to 
shoulder our proportional share of the burden. To that end, we 
have already set about garnering efficiencies and developing 
new strategies that will allow us to continue to meet our dual-
mission responsibility with less funding.
    Those two missions have required an Army National Guard of 
360,000 soldiers, 54 joint force headquarters, 8 combat 
divisions, 28 brigade combat teams, 8 combat aviation brigades, 
and over 70 enabling brigades over the past 10 years.
    We are reminded regularly that we live in a very dangerous 
and unpredictable world, and it seems like the predicted 100-
year natural-disaster events are coming closer and closer 
together. We have built a capability to respond to the needs of 
our citizens, home and abroad. We ought to fully understand the 
risk associated with reducing that capability, because, in the 
words of a combat commander in Afghanistan, sometimes all it 
takes is all you have.
    The Army National Guard is a force forward deployed in our 
area of operation, the homeland. We have built great capacity 
in the National Guard by establishing forces specifically 
designed to deal with emergencies, disasters, and potential 
terrorist attacks. Those units include Guard Civil Support 
Teams, CBRNE [Chemical, Biological, Radiological, Nuclear and 
High Yield Explosives] Emergency Response Forces, Homeland 
Response Forces, and Domestic All-Hazards Response Teams. By 
one estimate, 96 percent of the events that happen across our 
country on a daily basis are handled by the local first 
responders--the policemen, the firemen, and the National Guard. 
Only 4 percent require Federal support.
    It has taken years to build these organizations. We should 
not rush to reduce the size, structure, or capability of the 
Army National Guard without significant analysis and thorough 
deliberation. I think it is very important to note that 
eliminating a soldier from the Army National Guard is a double 
hit because you not only take a soldier out of the warfight, 
you also take a soldier out of the emergency response team at 
home.
    In the end, we have asked that the Army Guard's share of 
the budget reductions be given to us, the Army National Guard, 
and let us figure out where to pay the bill. Don't direct 
reductions in Guard brigade combat teams or end strength, 
because when that happens we will be forced to close armories, 
move out of communities, and be driven to a lower readiness 
level. Consistent with Secretary Panetta's comments, we think 
we can examine our contracts and our programs and become more 
efficient while maintaining our end strength and our force 
structure.
    In closing, the Army National Guard is battle-tested and 
well equipped for both of our missions. And this committee has 
been critical in building and sustaining the best-manned, best-
trained, and best-equipped National Guard I have seen in my 
career--truly a best value for America.
    Again, it is my privilege and honor to appear before this 
committee today, and I look forward to your questions and 
comments. Thank you.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 72.]
    Mr. Bartlett. Thank you.
    General Wyatt.

 STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Chairman Bartlett and Ranking Member Reyes, 
thank you for the opportunity to appear before you today on 
behalf of the 106,700 Air National Guardsmen--combat-proven, 
dedicated, professional men and women--serving around the 
world. I thank you and all members of the committee for your 
support, continuing support, in these challenging times.
    As we sit here today, over 6,000 Air National Guardsmen are 
deployed around the world in helping to defend U.S. interests 
on every continent, including Antarctica. In addition, nearly 
3,500 Air National Guard men and women are helping to protect 
our homeland by protecting the air sovereignty of the American 
airspace, flying the Aerospace Control Alert mission; also by 
assisting civil authorities in the protection of life and 
property in the United States, including assisting flood and 
hurricane recovery efforts in the Midwest and in the Northeast. 
Air Guard members are currently helping the U.S. Customs and 
Border Patrol secure our southern borders. And this summer, Air 
National Guard aerial firefighting units dropped over 360,000 
gallons of fire retardant on wildfires across the Southwest in 
support of the National Forest Service.
    For the last 20 years, the Air National Guard has been at 
war alongside our Air Force Reserve and regular Air Force 
brothers and sisters. When the air campaign of Operation Desert 
Storm began in January of 1991, 11 percent of the U.S. Air 
Force aircraft were flown and maintained by Guard airmen. And 
the men and women of the Air National Guard have continued to 
answer the call to service ever since, adapting rapidly to the 
changing demands of the post-Cold War security environment. 
Today, the Air National Guard provides approximately 34 percent 
of the total Air Force capability, at a fraction of the Air 
Force total budget.
    As we look to the many challenges ahead, my goal is to lay 
the foundations for an Air Force that has the capability and 
the capacity to meet tomorrow's challenges within the 
constraints that we can foresee.
    As you know, the Air National Guard relies on the Air Force 
for major modernization initiatives and weapons systems 
procurement. However, we work with the air staff to encourage 
them to equip the Air Guard in a manner that is concurrent and 
balanced with the Active Component, because I believe that if 
the Air National Guard is going to continue to be a reliable 
partner, able to integrate seamlessly into Air Force joint 
operations, it must have the equipment that is equal to the 
task and compatible with our Air Force Reserve and Active Duty 
partners.
    The funds that Congress provides directly to the Air 
National Guard via the National Guard and Reserve Equipment 
Appropriations, the NGREA account, have made a significant 
impact on our ability to support both the warfighter and civil 
authorities. We strive to use these funds as efficiently as 
possible by pursuing lower-cost, 80-percent solutions to the 
immediate needs of our warfighters at about 25 percent of the 
cost--needs that are identified directly by our warfighters and 
first responders out of our weapons and tactics classes.
    Your investment through NGREA has been a critical component 
to the Air Guard increased readiness. For example, without 
NGREA, the Block 30 F-16, the backbone of protecting America's 
skies, would be irrelevant today. Given the future budget 
uncertainty, we have shifted NGREA focus in FY '12 to ensure we 
finish as many existing modernization initiatives as possible 
to avoid expensive and disruptive production breaks should the 
amount of NGREA be substantially reduced.
    Ladies and gentlemen, you have created the most 
professional, combat-ready force in the history of the Air 
National Guard. Today's Guard airmen understand that the Nation 
needs more of them than one weekend a month and two weeks in 
the summer, and they are willing to answer the call. All that 
they ask is that we continue to provide them with the 
equipment, training, and resources they need to accomplish the 
mission.
    If I could share with you an experience this morning that 
kind of puts all of this in perspective, I had the honor and 
privilege of going to Arlington and attending the services of 
Specialist Christopher Horton, a sniper with the 45th Infantry 
Brigade Combat Team, Oklahoma Army National Guard. I knew this 
young man because he signed up to join the 45th when I was the 
adjutant general in the State of Oklahoma. He was killed in 
action in Afghanistan on September 9th this year, along with 
two other members of the Oklahoma Army National Guard, when 
they were caught in an ambush.
    I thought about other Oklahomans that were serving in 
harm's way today. My old 138th Fighter Wing, F-16 wing out of 
Tulsa, Oklahoma, currently flying combat missions in Iraq, 
trying to prevent what happened to Specialist Horton and his 
compatriots, trying to prevent that from happening. That F-16 
unit would not be able to do the combat operations that it is 
doing today, protecting people on the ground, had it not been 
for the NGREA accounts that allowed us to develop the targeting 
pods that those aircraft carry today. That is the importance of 
the NGREA account.
    We have a tendency, as we meet here today, to talk about 
resources and talk about modernization and talk about funds and 
talk about equipment, talk about stuff. But when it comes down 
to it, what we are really talking about is providing the 
equipment, the training, the resources that our young men and 
women, regardless of service and regardless of component, need 
when they go into combat. That is the importance of why these 
gentlemen are here today and why all of you are here today.
    It is an honor and privilege to be here, and I look forward 
to answering your questions.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 97.]
    Mr. Bartlett. Thank you.
    Now General Stenner.

  STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., USAF, CHIEF, 
                     U.S. AIR FORCE RESERVE

    General Stenner. Chairman Bartlett, Ranking Member Reyes, 
committee members, thank you for inviting me to appear before 
you today.
    I am here to report that the Air Force Reserve continues to 
be seamlessly integrated with the Active Component and the Air 
National Guard to complete all of the Air Force missions we are 
assigned. We accomplish this while continuing to provide a 
cost-effective and combat-ready force available for strategic 
surge and ongoing daily operations.
    My written testimony outlines our modernization strategy 
and priorities. Today, I would like to discuss the profound 
impact NGREA funding has on our force readiness.
    But, first, let me take the opportunity to introduce and 
thank Chief Master Sergeant Dwight Badgett. As the Air Force 
Reserve Command Chief for the past 2\1/2\ years, Chief Badgett 
has served as my senior enlisted advisor. He will be departing 
Air Force Reserve Command to join Northern Command's Joint Task 
Force North as the senior enlisted leader. There is no better 
example of jointness and total force than the selection of this 
highly capable and well-qualified chief to this post.
    Chief, thank you for your continued service.
    The Air Force Reserve has never had a more seasoned and 
capable force equipped to support missions around the globe. 
Our contributions range from the training of our institutional 
forces in associations and basic military training and pilot 
and navigator training to our continued involvement in joint 
and coalition combat operations and humanitarian airlift 
operations abroad.
    Just a quick outline: To the left here on this chart is, as 
a percentage of what the total Air Force does, is what we as an 
Air Force Reserve bring to this fight. And I know my partner in 
the Air National Guard has a chart similar to that. And when 
you put those two Air Reserve Components together, you have a 
very powerful piece of what the Air Force brings to this 
Nation's defense.
    We have also expanded our efforts in cyber, remotely 
piloted aircraft, intelligence surveillance and reconnaissance 
based on Air Force and combatant commander requirements. The 
Nation depends on us, and it is therefore crucial that we 
continue to provide that force with the equipment, the 
training, and the resources they need to accomplish the 
missions that we have been asked to execute.
    The National Guard and Reserve Equipment Account is 
absolutely vital to the way the Air Force Reserve operates 
today. It impacts every facet of our operational readiness and 
is the primary means of ensuring the Air Force Reserve is 
equipped with the most relevant, modern, and compatible fielded 
technologies, preserving our combat capability on a cost-
efficient basis.
    Since 1982, NGREA has allowed the Air Force Reserve to 
upgrade our operational equipment with better targeting, self-
protection, and communication capabilities, all of which have 
proven to be critical, time and again, to supporting operations 
wherever we are called to serve around the globe. For more than 
29 years, NGREA-funded programs tested and recommended for 
fielding by the Air National Guard and Air Force Reserve 
Command Test Center have resulted in multiple weapons systems 
and equipment being fielded to frontline operators through 
system program offices that support the total force warfighter.
    Current levels of NGREA and supplemental funding have 
allowed the Air Force Reserve to make significant strides in 
meeting urgent warfighter requirements. For example, NGREA made 
possible state-of-the-art avionics upgrades unique to the Air 
Force Reserve and Air National Guard F-16 Block 30 weapons 
systems, a highly sought-after capability during Operation 
Enduring Freedom.
    Today, as another example, with NGREA funding, we are 
saving lives. A tool called the Smart Multi-Function Color 
Display provides air combat search and rescue helicopters, the 
HH-60Gs, Pave Hawks, with enhanced data link and situational 
awareness capabilities. In less than 20 months from contract 
award, the display was in use by tactical units in Afghanistan. 
This NGREA effort directly contributed to saving 331 lives with 
268 assists during Operation Enduring Freedom.
    Air Force Reserve NGREA funding of at least $100 million 
per year will permit us to start modernization initiatives 
vital to maintaining our combat edge and to complete ongoing 
efforts that are essential to continuing our effective 
contributions to the total force and its wartime missions.
    Properly equipping the Air Force Reserve preserves our 
capacity to continue providing forces as an operational 
reserve. The work of this committee, especially its 
consideration of Reserve Component modernization efforts, is 
essential to our support of joint and coalition operations.
    Thank you for your work. And, again, thank you for asking 
me here today to discuss these important issues affecting the 
readiness of our airmen and our equipment. I look forward to 
your questions.
    [The prepared statement of General Stenner can be found in 
the Appendix on page 105.]
    Mr. Bartlett. Thank you all very much.
    As is my usual policy, I will reserve my questions until 
the end, hoping that they will all have been asked by my 
colleagues.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you all for your testimony here this afternoon.
    In your written testimony, all four of you mention that 
Reserve Components offer a more cost-effective way to maintain 
and deploy military capabilities. In fact, some of the 
percentages that you cited were very impressive. But from time 
to time on the Active Duty side, others say otherwise, 
specifically pointing out to the high training cost for 
deploying Reserve forces.
    So I have three questions for all of you: Does the DOD have 
an agreed-upon baseline to use in comparing the cost of Reserve 
versus Active Duty Forces? The second question is, what is your 
view of the right numbers that should be used to compare? And 
then, should we look at the--third one--should we look at the 
overall cost per service member or compare similar units to 
each other?
    General Stultz. Yes, sir, I will lead off.
    To answer your first question, no, sir, I don't think we 
have an agreed-to number. I know there are a number of studies 
out there, and part of the challenge we have in identifying 
what is the agreed-to number are, it is not just pay and 
allowances and it is not just training days associated with it. 
We have to pay into accruals for medical and retirement. And 
because our retirement system is deferred--we don't draw 
retirement and don't become eligible until age 60--it is a 
lower accrual rate, which, in fact, says a Reserve soldier on 
active duty actually costs less than an Active Duty soldier on 
active duty because the accruals are lower. Not everyone agrees 
with--``Well, we don't count it that way.''
    My Reserve soldiers don't live on an installation, and all 
the costs associated with funding an installation and 
everything that goes with that. They drill in a Reserve center, 
which is a much lower cost facility to operate. But, again, a 
lot of the cost models say, ``Well, we don't consider that when 
we are looking at it.''
    So I think part of the challenge we got is trying to get 
everybody to agree as to what really does a soldier cost us and 
what are all the things that go with it. So, no, we don't have.
    Now, the second thing I would tell you is, in the cost 
analysis we have run on the Army Reserve, the cost of an Army 
Reserve soldier today, to get him deployed to Afghanistan--I 
will tell you, the cost of deploying the 744th today versus the 
cost of deploying the 744th back in 2004 and 2005 is much 
lower. And the reason is the chart right here. In 2003-2004, we 
weren't ready. And so, most the units mobilizing in the Army 
Reserve took 60, 90, 120 days just to get trained, which only 
left us 6 or 7 months of boots-on-the-ground time. And so, in 
the cost analysis, when you use those figures, you say, ``Oh, 
yeah, I need two of these for every year because I only get 6 
months out of them.''
    The cost of deploying this unit today is much less because 
I am able to train and deploy most of the Reserve units in the 
Army Reserve in 30 days or less because they are combat-
seasoned, they are already trained in a lot of their skill 
sets, and they come together very quickly and we are able to 
push them out. So now we get 10 to 11 months of boots-on-the-
ground time out of them versus 6 or 7 that we used to.
    So that reflects the right side of that chart that says, 
here is a trained and ready force, and once you get it trained 
and ready, it is much more cost-effective because you don't 
have to invest as much up front as long as you maintain what 
you have already got. And so, our figures come out somewhere 
around a third of the cost.
    And then the third thing we have said is, if we are going 
to train and get this force as an operational force, we don't 
necessarily have to utilize it in the future for 12 months at a 
time and 100 percent of the force. We can take an engineer 
battalion and I can go to a combatant command like AFRICOM 
[U.S. Africa Command] or SOUTHCOM [U.S. Southern Command] and I 
can say, let me give you the battalion that the 744th belongs 
to, but here is what I want you to do: Just use one company at 
a time for 90 days, and go do humanitarian--build schools, 
build medical clinics, do things like that.
    And these gentleman back here go to El Salvador or Panama 
or Ethiopia or Uganda or Kenya for a 90-day rotation, followed 
on by their sister company out of Pocatello, followed on by 
their sister company out of Crater Lake. And we use the entire 
battalion during the year, but we only pay 25 percent of it at 
a time.
    So the model I have for the use of the Reserve for the 
future is very cost-effective. And I think we are still going 
to have challenges on coming to the right number, what is the 
right number. But I can tell you, whatever the right number is, 
it is much lower in the Reserve Components than our Active 
counterparts.
    General Carpenter. Congressman, first of all, I would like 
to point out that each one of the three components has a role 
to play in the total Army. We, in the National Guard, have two 
missions: The homeland mission and the Federal mission. The 
Active Component has a primary mission for being the first 
response in terms of a national requirement, and General 
Stultz's force is providing the majority of enablers, in most 
cases, as that Active Force goes downrange.
    So nobody should think that there is a cost savings to be 
had across the entire force by turning us into a purely Reserve 
or purely a National Guard organization. That is not the 
discussion at all.
    On the surface of it, though, you have to accept the fact 
that when the National Guard only takes up 10 percent of the 
budget, we are definitely a lesser-cost organization from a 
Reserve standpoint. One-third of the cost is the calculation 
that we have as we look across the pay and allowance and the 
costs associated with having a unit in the Reserve in the 
National Guard.
    There is no question, as we go toward mobilization, that 
that cost rises and we get close to 100 percent, close to the 
same parity as our Active Component counterparts. But to 
General Stultz's comment about the operational force, for a 
very modest investment we can sustain the combat edge, sustain 
the training and proficiency that we have garnered here in this 
operational force courtesy of the last 10 years of war.
    And so, our pitch to the Active Army and to the Department 
of Defense is, it would make good sense to invest in this 
operational force and, for a modest amount, to be able to 
sustain that.
    In terms of the right numbers, I think that in the 
discussions we have had with the Army, the Army recognizes the 
metric that I just described to you.
    Overall, the cost per service member in comparison, you 
know, in some cases it depends on whose figures you are relying 
on and what all is factored into it. But in the final analysis, 
there is no question that the Army National Guard and the Army 
Reserve are a great investment for this country and provide a 
huge bang for the buck.
    General Wyatt. Congressman Reyes, the question you asked is 
an interesting one. And I would agree with my contemporaries 
here that I don't think the Department of Defense has an 
agreed-upon computation. There are lots of studies out there.
    I would suggest that it would behoove all of us to ask 
questions of the analysts that try to answer that question and 
to consider the source of those analysts. I gave up a long time 
ago trying to out-analyze the Active Duty in the United States 
Air Force, because they outnumber me. They have a lot of 
Ph.D.'s and they are A9 [Analysis Directorate]. I don't even 
have an A9, you know?
    We have 98 percent--98.5 percent of Air National Guardsmen 
are in warfighting UTCs [Unit Training Code]. Our core 
competency is not analysis. Our core competency is not weapons 
development. Our core competency is not acquisition. Those are 
all core competencies of the United States Air Force that adds 
to the cost of the Active Component. I recognize that.
    But when you compare the cost of a warfighter to the cost 
of a warfighter, Active and Reserve, I prefer to look to 
sources of information that are not Active Duty and not Air 
National Guard.
    If you consider the Government Accountability Office on 
Military Personnel, they say the relationship is one-sixth the 
cost--an Air National Guardsman costs one-sixth as much as an 
Active Component. The Office of the Under Secretary of Defense 
says about one-fourth. The Heritage Foundation says about one-
sixth. The Commission on the National Guard and Reserve said 
that they looked at all the studies that were out there, and 
while they all varied a little bit, they were all consistent, 
in that guardsmen and reservists cost less, especially if you 
consider the lifecycle.
    Now, if you took all 106,700 of my Air National Guardsmen 
and you called them to Title X service and you put them all on 
active duty at the same time, yes, they would cost as much and 
perhaps maybe a little more than the Active Component, because 
we do need to train up a little bit--not much, because the Air 
Force already funds the Air National Guard to organize, train, 
and equip to the same standards as the Active Duty Air Force. 
So we don't need the boost in training to get to that level 
that the Air Force expects us to have.
    Our DOC statements, our description of capabilities 
statements, in the Air National Guard for our units requires 
the same response time, the same level of response as the 
Active Component.
    So when we say that the Air National Guard provides 34 
percent of the Air Force warfighting capacity, that is what we 
are talking about. And if you look at our budget compared to 
the total Air Force budget, it is about 6 percent. We think 
that is cost-effectiveness.
    General Stenner. Congressman, I do have an A9. They do 
analysis. But I quit doing dueling data. It doesn't help.
    My baseline--and your first question went to, what is the 
agreed-upon baseline, do we have one? Mine is intuition. First 
of all, if you are only paying somebody when they are actually 
being used, intuitively they are cheaper than somebody that is 
being paid 100 percent of the time. So the next trick is, is it 
a third, is it a quarter? Doesn't matter; it is less.
    And to your next question, what are the right numbers, it 
goes to balance. Every single mission has got to be looked at, 
in my opinion. What is the requirement for strategic depth? How 
much do you need in Reserve? And then how much is the combatant 
commander requiring of you? How much, then, do we need for the 
Active Force? And we put the rest of it in, in the Air Force 
anyway, the Guard and Reserve as appropriate by mission set.
    So there a balance in each mission. And there is no real 
template that you can go to across all the missions and say, 
this is right. The mobility air forces, we have a significant 
portion of that, both the Guard and Reserve, on a daily basis. 
And we are paid for when we operate those airplanes around the 
world and not paid for when we are not operating those 
airplanes around the world.
    Lastly, it is by mission set with the balance, and Air 
Force Reserve and Air National Guard, in my opinion, are the 
catcher's mitt for folks who, in fact, make a life-changing 
decision and decide that they need to move to a Reserve or 
Guard Component, and I want to give them the opportunity to 
serve in a part-time capacity, because there are huge costs 
included in retraining somebody. It takes how long to replace a 
10-year staff sergeant? Ten years. Huge training costs. I want 
to keep that trained individual in our Reserve Component to 
ensure that they are there when the Nation needs them.
    Capture them, comparing that to the training costs, we are 
definitely a cheap and effective and efficient--I don't want to 
say ``cheap''--effective and efficient, cost-effective way to 
do business.
    Mr. Reyes. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you very much for a good question and 
good responses.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here, and thank you all for 
your service to our country.
    General Wyatt, we have had some discussions in the past. 
And I was hoping you could provide us with your best 
professional military opinion on the issue of replacing F-16 
Block 30 fighter jets within the Air National Guard.
    I understand that the Air Force has always stated their 
commitment to ensuring that the Air National Guard has the iron 
necessary to perform critical missions. However, has the Air 
Force presented you with a formal plan for dealing with the 
timeline and the numbers that you can expect to recapitalize 
your fighters over the next 5 to 10 years?
    And I ask this question because I believe, you don't have a 
plan unless it is on paper. So people can talk about a lot of 
different things, but that changes. And this committee, I 
think, really needs to have a better understanding of the path 
going forward, because, as we enter a new climate of defense 
spending, we really need to understand the justification for 
decisions before they happen, not after they happen.
    And, additionally, as the F-35 keeps slipping to the right, 
I think this is going to have a huge effect on swapping out our 
aging Air National Guard fighters.
    And I would really appreciate your comments on this.
    General Wyatt. Thank you, sir.
    You know, we have had a discussion before about the age of 
the Block 30 F-16s in the Air National Guard. The Air Force has 
committed some money for structural sustainment that will buy 2 
to 3 more years of life. But you are correct; in the next 10 
years, these aircraft will age out. Some of them will start 
aging out before then.
    There are a lot of different options: Flowdown of Block 40 
F-16s, flowdown of Block 50 F-16s from the Active Component to 
the Guard as the F-35 is bedded down on active duty. Bedding 
down the Active Duty with F-35s in those units that performed 
ACA [Aerospace Control Alert] so that they could do not only 
the air sovereignty, the Aerospace Control Alert mission, but 
also the AEF [Air Expeditionary Force] rotations overseas, as 
they do.
    But I think your question went to, has the Air Force shown 
you a written plan that shows you the numbers of aircraft, the 
types of aircraft, and the years that they will flow to the Air 
National Guard to replace the old Block 30 F-16s? Was that your 
question?
    Mr. LoBiondo. Yes, sir.
    General Wyatt. The answer is, no, sir, they have not. I 
have not seen that plan yet.
    Mr. LoBiondo. So, this is kind of troubling. Have you 
requested--have you made a request for a formal plan?
    General Wyatt. Yes, sir, I have. We began requesting a 
couple of years ago when I first--well, a little over 2 years 
ago when I first became the director, and we have been making 
some progress. I have seen some general plans but nothing that 
would show me, for example, how many jets may be coming to the 
Air National Guard in the next 3 or 4 years to replace an 
aging-out aircraft.
    That is the type of detail that we would really need to be 
able to go forward to determine whether or not we are going to 
be recapitalized. But I have not seen that plan yet, sir.
    Mr. LoBiondo. Well, Mr. Chairman, you have been good on 
this, Chairman Bartlett. And I would like to think that this is 
a critical issue for the entire committee, but especially this 
subcommittee. And I would hope, Mr. Chairman, that we could 
find ways to address directly with the Air Force leadership. We 
have been posing this question now for a number of years. We 
keep getting sort of a dodge-and-weave on this. And, at a 
certain point, we are going to run out of time to be able to 
make accommodations, if we need to do that.
    I think it is critical, given the integration that the Air 
Guard has had with the full Air Force, what they are doing, 
being deployed in the war against terrorism. And I would hope I 
could work with you directly on this matter to get a more 
substantial answer that we could put our arms around and decide 
whether they actually have a plan or they are just giving us 
lip service.
    Mr. Bartlett. Thank you very much. I concur with your 
concerns, and I will be happy to join you in a request for 
clarification of this to the appropriate people. Thank you very 
much.
    Mr. LoBiondo. Thank you.
    Mr. Bartlett. Ms. Tsongas.
    Ms. Tsongas. Thank you all for your testimony and for your 
service.
    I represent a district in which many members of the Guard 
and Reserve have gone to serve in Afghanistan and Iraq, and see 
their extraordinary professionalism, the tremendous training 
that you have put in place so that they can do the tasks they 
are handed, and the various wounds that they sustain as a 
result of their deployment. So I just want to thank you and the 
fine young men who are with you today for your great work on 
behalf of our country.
    And we are all looking at the budget cuts that we are 
facing as a Nation, and the Defense Department obviously having 
to absorb a significant portion of them, but we also want to be 
very thoughtful and careful. And so I appreciate your testimony 
today.
    I have a question about the Quadrennial Defense Review. I 
am curious as to whether or not it provides a constructive 
template for future employment of the operational force that 
you have worked so hard to develop. And what impact will the 
Budget Control Act of 2011 and the possibility of sequester if 
we cannot come to an agreement have on some of the QDR's 
[Quadrennial Defense Review] underlying assumptions with regard 
to the Guard and Reserve?
    And I will take an answer from any and all of you.
    General Stultz. I will lead off, and I will try to make it 
concise.
    I think the QDR provides a framework for the Army, in terms 
of the role of the Army or the land component. And that, in 
turn, if you want to call it trickle-downs, but it shapes what 
kind of capability we need to have in the Reserve to support 
the role of the land component. And then I think the QDR also 
defines what we need to protect our Nation back home, our own 
soil, and respond to our disasters back here.
    And I know there is legislation that is being put in place 
today to allow the Title X Reserve to be more of a homeland 
capability, not to get involved with the National Guard, 
because they do--and, as Ray indicated, 90, 95 percent of the 
time, everything is fine and handled at the State level. But 
when it comes to we need the Federal force to help us, today we 
revert to the Active Component, when, in many cases, there is a 
Reserve unit, Army, Air Force, Navy, and Marine Corps right 
there in your State with the capability you need, but legally 
we can't touch them.
    So we are pushing that, and we appreciate your support to 
say, let us be part of the solution and let the QDR help us 
shape that.
    Now, for the second part of your question, I think it could 
be devastating, ma'am. I think it could be devastating if we go 
forward into the sequester, because it is going to force cuts 
across the military. And I think it could lead, one, to 
parochialism, because they are going to be fighting for 
aircraft while I am fighting for soldiers, because we are all 
in it. And we are not fighting because we are, you know, too 
protective or jealous. We are fighting because we say our 
Nation's security is at risk. And if we allow that to go 
forward, in the cuts we have, can I do what needs to be done to 
protect this Nation? Can I produce the 205,000 soldiers that 
the Army needs with all the capabilities I listed before, or am 
I going to not have the equipment, not having the training 
days, not having anything, and we go back to a 9/11/2001 stance 
with our Reserve, which is a hollowed-out strategic force?
    So I think if we let these budget cuts go forward to the 
level that they could, it could have a devastating impact on 
our national security.
    General Carpenter. Congresswoman, a couple of observations.
    The 2010 QDR was actually a study that was done in 2009 
reported out in 2010. We find ourselves now in 2011 about ready 
to go into 2012. The reason why we do a Quadrennial Defense 
Review every 4 years is because things change. And, as 
Secretary Gates observed, our ability to predict the future--we 
have been 100 percent wrong across the board. And so, what we 
saw in the analysis in 2009 in terms of what the world looked 
like pre-Arab Spring, pre-budget issues, those kinds of things, 
are not factored into the QDR that we see now in 2010.
    One of the things that the QDR did represent, however, was 
the building of Homeland Response Forces, which we are 
currently in the process of doing. And we validated 2 of those 
10 last year, and we are about ready to validate another 8. It 
did recognize the responsibility to minimize the risk in the 
homeland and to try and make sure that we would prevent and 
deal with any terrorist attacks on our own soil. That is an 
enduring requirement.
    I think that as you look at where we are at right now with 
regard to the relationship that we have inside the Army, the 
three components of the Army, and the budget issues that are 
out there, I agree with the Secretary of Defense and the 
Secretary of the Army and the Chief of Staff of the Army in 
their observation that if we end up having to take the 
reductions that are out there, it will decimate the Department 
of Defense.
    And as you take a broader view, even if you dedicated the 
entire Defense Department budget against the requirement we 
have out there, it wouldn't solve--it wouldn't be the solution, 
because it is a much larger problem than inside the Department 
of Defense. It is going to take a shared sacrifice here to get 
us back into a configuration where we can sustain the economy 
we have right now.
    And so, to Secretary Panetta's comment about we ought to 
take a strategic view of this rather than be expedient, I think 
that is exactly the right course.
    General Wyatt. You know, we talk about efficiencies, we 
talk about doing more with less, we talk about being lean and 
mean and moving tail to tooth--all these expressions. I would 
submit to you that the Air National Guard has been lean and 
mean before lean and mean was cool. We were efficient before 
efficiency was cool.
    We had to because of the nature of our force. We often fall 
below the resourcing line--and I understand that--because the 
demands of our Air Force are such that a lot of times the 
resources aren't enough to pay for what the country expects the 
Air Force to do. The Air Force Reserve and the Air National 
Guard play a big part of that.
    So all this talk recently about, ``Well, we need to become 
more efficient,'' I agree, we need to continue trying to find 
efficiencies. But in the Air National Guard I think we have 
squeezed just about all the blood out of this turnip that we 
can squeeze. We are at the point now that any further 
reductions, cuts, drawbacks, will adversely affect our 
readiness. You know, I am committed not to sending airmen into 
harm's way unless they are fully trained, fully equipped, very 
capably led, and we won't back off that standard at all.
    So when you combine the two of those, the only thing I can 
say is that we may need to start taking a look at not doing 
some of those missions that the QDR laid out for the United 
States Air Force to do. That is a decision that will be made 
way above my pay grade, but as far as the Air Guard is 
concerned, I think we are at that point right now.
    General Stenner. Your first question was, did the QDR 
provide a template? And, ma'am, no such thing.
    There were several different scenarios, different sets of 
conditions that we were looking at and attempting to 
understand. And as General Carpenter has said, we have moved on 
to something that now is a fiscal reality. And regardless of 
which piece of QDR you look at, the Air Force Reserve needed to 
be and must be, would have been, a part of every single one of 
those and solution set in force-sizing.
    And that is the real trick, is what is the force-sizing 
construct that we are looking at right here? And how do we 
handle that major combat operation and still be able to do the 
rotational force we are doing on a daily basis with the 
contingencies around the world and make sure we continue to be 
able to train and continue to be ready for either of those 
other two conditions? That now is couched in fiscal reality.
    And to your second question, your second comment, 
sequester, when I go back to what I just said and I apply 
sequester to the force-sizing that we are trying very hard to 
figure out and the balance we are trying to figure out, there 
is no strategic look at sequester. And we will absolutely 
destroy some piece of the mission that we didn't intend to do 
without a strategic discussion, and not just within the Air 
Force but likely across the Services.
    Ms. Tsongas. Thank you all.
    Mr. Bartlett. Thank you.
    Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    Thank you all for your testimony, and thank you for your 
service.
    A question for all of you. Specifically, I know on the Army 
side we have talked a lot about personnel, but from an 
equipment perspective and the ability to do all your missions, 
compare equipment-wise pre-9/11 to now. Because we know that 
Active Duty, a lot of times, is taking the equipment you have 
and your ability to train your troops to the level they need to 
be trained.
    General Stultz. Yes, sir. We have--thanks to Congress 
giving us the appropriations they have and the NGREA funds that 
we have been able to get and apply, our equipping posture in 
the Army Reserve is better than it has been in history.
    However, it is not where we need it to be. And the 
challenge we have is, you can look and say, we are at 91 
percent of our authorized equipment on hand; we are in pretty 
good shape. The problem is, we are at about 67 percent 
modernized. It is equipment that is a substitute for the modern 
equipment. And, more importantly, when you get into some of the 
critical pieces of equipment, the figure says you are at 90 
percent on hand, but actually it is 29 percent modernized or 25 
percent modernized.
    And why is that important? Well, the importance is what I 
said earlier about this route clearance unit. They need that 
modernized equipment back home to train on because that is what 
they are going to be expected to operate when they get to Iraq, 
Afghanistan, or wherever the next call is.
    We need the modernized equipment because the modernized 
equipment has the ability to put add-on armor. You see, I have 
probably 90 percent of my Humvee [H164 Mobility Multi-Purpose 
Wheeled Vehicle] fleet, but only 15 percent of it can have add-
on armor. So it is not really practical for use in an IED 
environment that we can counter. I would have to be dependent 
of somebody else giving me the equipment.
    A lot of my 915 line-haul trucks that I have that haul all 
the containers that moved everything into Iraq and move a lot 
of stuff around Afghanistan are the old models that aren't add-
on-armor-capable. We use what we call ``ghetto armor''; we just 
slap what we can on there to protect them. We need the 915 A5s, 
which are the modernized cab that allows you to put an A or a B 
kit, depending on what level of threat is out there.
    And just as you know in your district, sir, Fort Dix, New 
Jersey, is one of our premier training platforms. That is where 
all the soldiers we have--Active, Guard, and Reserve, in a lot 
of cases--go through there in their training getting ready to 
go to theater. And we need that equipment sitting there at Fort 
Dix as a training set so that I don't have to pay to transport 
a piece of equipment up there for the unit to train on and then 
transport it back home to them to be back in their motor pool.
    So, to me, the bill out there, it is the modernization 
effort. To get the Army Reserve today to 100 percent 
modernized, 100 percent of everything we have and 100 percent 
modernized, is about an $8.9-billion bill that is still out 
there. And that is because equipment has continued to change 
and that is because units have continued to change, but we 
can't stop.
    We have to be effective and efficient in how we use it. If 
I am going to outfit a heavy transport truck company with 96 
HETs [Heavy Equipment Transporters], I don't need 96 sitting in 
their motor pool back in Las Vegas, Nevada, but I need 96 
setting at Fort Hunter Liggett, probably, so they can train on 
them, and for sure I need 96 modernized HETs to go with them 
where they go in theater.
    So the modernization, to me, is much more important than 
the on-hand figure that we quote.
    Mr. Runyan. General Wyatt, do you have anything? I am sure 
you have a similar concern in the Air Force.
    General Wyatt. I do, sir. You know, we face the same issue 
in the Air National Guard that General Stenner does in the Air 
Force Reserve and the Active Duty does, and that is that we 
have a lot of old stuff out there--you know, fighters that are 
25 going on 30 years old, tankers that are over 50 years old. 
And so we have this recapitalization challenge.
    We know in the Air National Guard that unless we go and the 
Air Force goes with concurrent and balanced recapitalization 
across the total force, that we are in the Air National Guard 
looking at obsolescence of equipment here before we see 
replacement equipment.
    In the meantime, we can make that legacy equipment last a 
little longer with some modernization funds. Thank goodness for 
NGREA money because we use a lot of that to modernize our 
equipment. Although we look to the Air Force to modernize and 
equip us, we know that a lot of our needs fall below the 
funding line, and that is why NGREA is so important.
    Our equipping levels are steadily dropping. We are losing 
the effectiveness of our equipment. And I am not necessarily 
talking about the aircraft. We have adequate aircraft to do the 
mission right now. We have weapons sustainment moneys. We will 
be able to fly the missions for a little while longer, but it 
is getting more difficult because these jets and our rolling 
stock is getting older and older, more difficult to maintain. A 
lot of the parts are not in production anymore. A lot of our 
radar systems are old mechanical scanned array, as opposed to 
the new electronically scanned array. And all that affects our 
combat capability and our readiness. It is getting more and 
more difficult and more and more expensive to maintain these 
legacy platforms.
    So we face the same problem that the Air Force does, except 
our stuff is just a little bit older and a little bit more in 
need of modernization.
    General Carpenter. Congressman, if I could make a quick 
comment----
    Mr. Runyan. Sure.
    General Carpenter [continuing]. Relative to New Jersey and 
the recent floods that were sustained in New Jersey because of 
Hurricane Irene.
    The New Jersey National Guard was in a lot better shape to 
respond to that hurricane because of the modernized FMTVs 
[Family of Medium Tactical Vehicles] that were available for 
use to respond to the requirements of the citizens of New 
Jersey. And I think, as you look at that, if they hadn't had 
the modern equipment that they did have on hand, the response 
would have been a little bit more difficult and probably a 
little slower.
    So, courtesy of this committee and the National Guard and 
Reserve Equipment Account and the $37 billion that has been 
plowed into our equipment over the last 6 years, it not only 
benefits the warfight but it benefits people in the homeland.
    General Stenner. Congressman, if I could just put one more 
point on this particular discussion, because NGREA is hugely 
important.
    The modernization pieces have all been talked about, but I 
think that there is one perhaps unintended positive consequence 
of NGREA, and that is that it is execution-year dollars. It 
meets the urgent operational needs that come from combatant 
commanders. And, in several cases, the Guard and Reserve Test 
Center has responded to these urgent operational needs with 
commercial-off-the-shelf kinds of hardware and software that 
are able to be put on some of the airplanes, not only on Guard 
and Reserve, but started on Guard and Reserve airplanes and 
migrated to the Active Force.
    We can get that quicker with NGREA dollars than you can get 
programmatically putting it into the funding streams. And it 
ends up migrating that direction, to the Active Force as well.
    Mr. Runyan. Thank you all very much.
    Chairman, I yield back.
    Mr. Bartlett. Thank you very much.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Thank you, Generals, for being here. Thank you for your 
service.
    For those in the audience, thanks so much for being here 
with us, and thank you for your service.
    General Carpenter, I just have one quick question for you, 
is that the Department of the Army is going to divest itself of 
the ``Sherpas,'' the C-23s. And, from my understanding, they 
have been used pretty extensively in theater. And I am just 
curious as to what the plan is, going forward, and what the 
impact will be to the Army National Guard.
    General Carpenter. Because of the resource management 
decision that was made last year, we are directed to divest 
ourselves of the C-23s ending in FY '15. We have actually 
parked four of them on the ramp in Texas right now, and they 
are no longer available for our use.
    There is, in my estimate, a gap that is created by parking 
those C-23s both in the homeland and in the overseas 
operations. As I mentioned before a different committee 
recently, when we were in Iraq there were 10 Sherpas that were 
deployed to Balad. Nine were on the ramp that evening, and all 
nine flew operations. And the information that I got was that 
the combatant commander was actually looking for more Sherpas 
to be able to use in that mission.
    We have two Sherpas now that are flying observations in MFO 
[Multinational Force and Observers] Sinai, in terms of the 
peacekeeping force there. They are, in the words of the 
Ambassador and the officials on the ground, the best aircraft 
that you could possibly have for that mission.
    In the homeland--I am a South Dakota guardsman. Our C-23s 
flew pilots from North Dakota back and forth as they carried 
out the CAP [Combat Air Patrol] mission--the CAP mission in the 
east coast. And they ferried--not only that, but they ferried 
parts and various supplies to New York as they dealt with 9/11.
    I think they provide a critical--a critical--part of the 
homeland mission and do great service in the overseas mission. 
We are concerned about what does that leave in terms of the 
effect after we have divested ourselves of all 15 of those--or, 
excuse me, all 42 of those.
    Mr. Critz. Thank you.
    General Wyatt, one thing that I just learned is that, you 
know, we are hearing that the Active Air Force is planning--may 
be planning significant retirements of Air National Guard 
aircraft--all C-5As; 3 F-16 wings; 72 C-130s, many of which 
were at the Guard; and some number of A-10s--and then 
terminating acquisition of the C-27J aircraft as a possible 
response to budget cuts.
    Has the Guard been actively involved or consulted regarding 
these cuts? And, if so, how would the loss of these aircraft 
affect the Air National Guard? And then what alternative 
missions will those men and women who operate those platforms--
what other missions will they be able to do with the loss of 
those aircraft?
    General Wyatt. The platforms that you have referenced, a 
lot of those are flown exclusively by the Air National Guard, 
C-27 being one of those. C-5As--we have two C-5A wings 
remaining in the Air National Guard. I believe General Stenner 
has some C-5As in his fleet.
    When the Air Force leadership says that everything is on 
the table, I believe what the Air Force leadership says. I 
think it is too early in the budgeting process to reach any 
conclusion as to what may or may not survive. And we are still 
looking at, you know, what is the total budget bogey going to 
be.
    But, you know, if those platforms were removed from service 
for whatever reason, budgetary or whatever, in essence what you 
would have is you would have the ``Air'' being taken out of the 
Air National Guard.
    Mr. Critz. Yeah.
    General Wyatt. There are other missions out there that we 
could certainly roll into, and we are already doing that. 
Remotely piloted aircraft, we already provide about 20 percent 
of the total Air Force capability in remotely piloted aircraft. 
We would look to see if we could get more of that mission.
    Cyber, I believe, is one of the areas identified where the 
Department of Defense needs to enhance its cyber capabilities. 
And we believe Air National Guardsmen are ideally suited for 
this role because a lot of our citizen warriors already work 
for some of the big IT [Information Technology] and computer 
firms across the country. They are already cyber-warriors in 
their civilian capacities. And those are the type of 
individuals that would find cyber-warfighting a patriotic thing 
to do.
    So there are some things that we could do to step into 
other mission sets. We haven't talked about, you know, RED 
HORSE [Rapid Engineer Deployable Heavy Operational Repair 
Squadron Engineers] engineering, communications, security 
forces. There are some other things that we could do. But if we 
lost those airframes, in essence you are taking the ``Air'' out 
of the Air National Guard.
    Mr. Critz. And we are just--we are hearing about this, and 
that is why I am curious, too, are you part of any discussions 
about targeting certain airframes for possible retirement or 
lack of use?
    General Wyatt. Well, the Chief of Staff and the Secretary 
have both said that there are some difficult decisions that we 
will have to make. The Air Force does include the Air National 
Guard and the Air Force Reserve into decisionmaking processes. 
And General Stenner and I have cast our votes. I don't know 
what the final verdict is going to be.
    Mr. Critz. Thank you very much.
    Thank you, Mr. Chairman.
    General Stultz. Sir, if I could just add also, from the 
Army's or at least from my perspective, that has a huge impact 
on us. Because, originally, we had part of the C-27 program 
designed to take the load off our CH-47s, and then we handed it 
over entirely to the Air Force. Our CH-47s, our aviation are 
some of the highest OPTEMPO [Operational Tempo]; we are flying 
the blades off of those things. And if we don't get the C-27s 
to take the load off of it, it is going to have a significant 
impact on our CH-47 fleet.
    Mr. Bartlett. Thank you very much.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I will be brief. A number of my questions have been 
addressed, and especially the one regarding the impact on all 
the military and especially our Guard and Reserve units if 
sequestration of $1.2 trillion or more occurs come January. And 
your frankness in assessing that is, I think, critically 
important to this committee and the full House and Senate in 
understanding the importance of avoiding that, and that the 
$400-billion-plus already taken out of defense is going to 
create some hardships as is, let alone more, another $600 
billion.
    The other, just a comment of gratitude. I certainly 
interact with the Guard and Reserve units in my district; we 
are close by a lot. With the 193rd Special Ops, I don't have 
the privilege of hosting the base, but many of their pilots and 
aircrews, support personnel are in my district. And with the 
Guard and reservists, in my 11 visits to Iraq and 8 to 
Afghanistan I see firsthand the amazing work they are doing.
    And your leadership and advocacy for those men and women is 
so important and, I think, all the more important because of 
the fiscal challenges facing us. And, you know, whether it is 
one-third, one-sixth, a quarter, whatever that savings number 
is, we know we have an absolute professional soldier or airman 
out there at a fraction of the cost, but when we need them. So 
what you and your officers and soldiers and airmen are doing is 
much appreciated, and we, as a Nation, are indebted to you.
    So, with that, I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    General Carpenter, what percent of the Army fighting 
capability is represented by the Army National Guard?
    General Carpenter. Mr. Chairman, 40 percent of the 
operational force of the Army is resident in the Army National 
Guard. Inside of the Army National Guard formations, 51 percent 
of our formations are combat brigades and combat aviation 
brigades, combat organizations.
    Mr. Bartlett. Thank you.
    General Wyatt, a similar number for the Air National Guard?
    General Wyatt. Mr. Chairman, we have about 34 percent of 
the combat capability of the Air Force. You can break that 
down. Tankers are around 43 percent; C-130 lift, about 30 
percent, perhaps 29, just a little bit below that; fighter 
aircraft, about 32 to 33 percent; RPA [Remotely Piloted 
Aircraft] I mentioned, about 20 percent.
    Cyber is kind of hard to count because we are still in the 
early stages in the Air Force of standing up cyber units and 
the capabilities that the Air Force needs to lend its support 
to national defense. But a large portion, depending upon how 
you count combat communications, perhaps up to 10 to 11 percent 
of our total force, could be interpreted of being in cyber 
already. So we see that as an opportunity to contribute to the 
defense of this country.
    Thank you, sir.
    Mr. Bartlett. Thank you.
    General Stultz, U.S. Army Reserve, what percent?
    General Stultz. Sir, we have a relatively small percentage 
of the combat force, because I have one light infantry 
battalion, which is out in the Pacific--Guam, Saipan, Samoa----
    Mr. Bartlett. Overall, what is your percentage, would you 
say?
    General Stultz. But our percentage of--we have 205,000 
soldiers in the Army Reserve out of the 1.1 million force. And 
of the combat support/service support, on average I would say 
we are a full third of that force.
    But we also have another force that we really never talk 
about very much, and that is in the generating force. I have 
48,000 soldiers that are part of the Army's generating force. I 
have the training divisions that do the basic training mission 
at places like Fort Jackson, South Carolina; Fort Benning, 
Georgia; Fort Leonard Wood, Missouri; the drill sergeants that 
are down there training Active Duty Guard and Reserve soldiers. 
I have the AIT [Advanced Infantry Training] battalions that are 
training them in their MOS [Military Operation Specialty] 
skills. I have the 75th Battle Training Division that does the 
mission command training for the Army in the warfighter 
exercises.
    So a huge piece of the Army's generating force is coming 
from my force, as well as the operational force. So you start 
putting those together and it gets somewhere around 33 to 40 
percent, sir.
    Mr. Bartlett. General Stenner, a similar number for the Air 
Force Reserve?
    General Stenner. Yes, sir. If you break it down by mission 
set, it is as I have depicted it here on this board. But as an 
overall number, very briefly, I would have to say it is 
approaching 20 percent.
    Mr. Bartlett. Twenty percent.
    Okay, I would--these numbers are pretty big for the Army. 
Something like 73 to 80 percent of the total fighting force is 
represented in the Guard and Reserve. Since it is very much 
less expensive to maintain capabilities in Guard and Reserve, 
obviously, the bigger percentage the Guard and Reserve is of 
the total fighting force, the less it is going to cost us. But 
there are limits to that, and I just wanted to get a number 
from each of you. And I would like for you to write that number 
down so you are not influenced by your neighbor's response. And 
I will ask you for that number.
    With due consideration to training and integration, what 
total percent of our fighting capability could be resident in 
Guard and Reserve if we are up against tight budget constraints 
and wanted to get the most for our dollar? If you would just 
write that figure down.
    I know you are either in the Guard or the Reserve, but if 
you will for now combine the Guard and Reserve in your answer. 
And I will give you a moment to write that down, then I will 
just go down the line and ask you for the number that you have 
written down.
    Okay. General Stultz, what number have you written down?
    General Stultz. I wrote down 65 percent, sir.
    Mr. Bartlett. Well, you already had 73 to 80 percent.
    General Stultz. Yes, sir. And what I am taking into account 
is that we right now, out of a 1.1-million-man force, the Guard 
and Reserve make up a little over 50 percent of that force in 
the total force. So if you were to say what could we be, I 
would say more along a 60/40, 65 percent.
    Mr. Bartlett. Are you talking about only the Reserve now or 
Guard? Because the answers I got----
    General Stultz. No, sir, I am talking about Guard and 
Reserve combined.
    Mr. Bartlett. Because General Carpenter told me that 40 
percent of the fighting capability is represented by the Guard, 
and you told me 33 to 40. If I add those up, it is somewhere 
between 73 and 80 percent already is represented by Guard and 
Reserve.
    General Stultz. But I am talking about the combat support/
service support. And I am not sure if he is talking about the 
combat arms. See, that is where you--when you start talking 
about the fighting force and what I make up of that, I make up 
the service-support side of it, not the combat side of it.
    Mr. Bartlett. Okay. And that is how much bigger than the 
current number? You are 63 percent----
    General Stultz. Well, currently, today, between the Guard 
and Reserve, we make up a little over 50 percent of the Army's 
force.
    Mr. Bartlett. And you think that could grow from 50 to 65?
    General Stultz. Yes, sir, 60 to 65 percent.
    Mr. Bartlett. Okay.
    General Stultz. And I think part of that is going to happen 
as we come down from 569 [569,000] to 520 [520,000] to whatever 
number. If we just stay the same, it is going to change that 
balance.
    Mr. Bartlett. General--let's see--General Carpenter, what 
number did you write down?
    General Carpenter. I feel like I am taking an open-book 
test here a little bit.
    Mr. Bartlett. Well, you know the total already that you 
gave me was 64 percent, 34 and--I am sorry, 54 percent, 34 and 
20, 54 percent.
    General Carpenter. And let me qualify this a little bit. It 
goes back to Secretary Gates' comment about being able to 
predict the future. And part of the discussion here has to be, 
what risk are we willing to take as we look at a very 
unpredictable and very dangerous world?
    Post-Iraq, post-Afghanistan, the number I wrote down is 70 
percent. But I have to tell you, you need to make sure you 
understand the risk associated with that.
    Mr. Bartlett. I understand. The higher that number is, the 
higher the risk is.
    General Carpenter. Absolutely.
    Mr. Bartlett. I understand that. Okay. And that is 
something you would have to factor--we would have to factor in.
    General Wyatt, what was your number?
    General Wyatt. Well, at the risk of sounding greedy, I had 
100 percent, but I thought that probably----
    Mr. Bartlett. That would be nice.
    General Wyatt. I think a lot would depend upon the 
particular mission set that you are talking about. Certainly, 
there are some mission sets in the Air Force that are better 
suited to the Guard and Reserve, other mission sets where the 
Active Duty is more suitable.
    And I touched on this a little bit earlier when I was 
talking about warfighting UTCs. That is our specialty, is 
warfighting UTCs. We don't do very good acquisitions. We don't 
do very good research, development, test, and evaluation. We do 
some special operations. We do some special operations with the 
193rd SOW, a special operations wing in Pennsylvania. But that 
is not our forte. Those folks are very, very good, but we don't 
have large numbers of those types of special forces. Space, we 
do some space, but a lot of those space missions are 24 hours a 
day, 365; that really doesn't fit the Guard construct.
    So I think you have to--you know, if you asked me, you 
know, how much higher headquarters research and development 
acquisition should the Guard do, I would say probably zero. But 
when we are talking about the type of capability that the 
country needs to ramp up for a fight and then ramp down for a 
fight and then ramp up for a fight, you are talking about 
combat unit training codes in the United States Air Force. And 
I think that the appropriate answer, in my mind, would be 60 to 
65 percent of that capability.
    Mr. Bartlett. Okay. Good. Thank you very much.
    General Stenner.
    General Stenner. Yes, sir. If I could qualify this by 
saying I need to go find my A9 analyst and see if we can't come 
up with a--but I will qualify with some assumptions.
    First of all, if we continue with the same concepts we have 
within the Air Force right now--we are trained to the same 
standards, we are seamlessly integrated, we can deploy within 
72 hours--maintaining those kinds of assumptions, maintaining a 
baseline number of MPA [Military Personnel Appropriation] 
dollars that we can in fact access--and that is a big concern 
of our Active Force compatriots, is the access to the Guard and 
Reserve, and I read ``access'' to mean military personnel 
appropriation dollars that get us into the exercises, into the 
theater security packages--doing all those kinds of things and 
getting it right in the baseline and, again, with the 
qualifiers on the institutional force, I threw 50 percent on 
the table.
    Mr. Bartlett. Thank you.
    Thank you all very much.
    I wanted to note my appreciation for the questions and 
answers relative to the C-27J. I have been concerned for a 
number of years that that was an airplane which the Army wanted 
and had considerable need for. In their wisdom, the Pentagon 
gave that plane to the Air Force and then asked the Air Force 
to please be Johnny-on-the-spot when the Army needed them. That 
was not anticipated to work very well. I am not sure that it is 
working very well. I do not believe that this program has been 
adequately resourced. And I am very appreciative that we got 
that question and answer without me asking the question to get 
the answer.
    Thank you all very much.
    Because we want to make sure that we have all the 
information that may be necessary to make certain that we make 
the best possible case for making sure that you have all that 
you need in the future, there may be questions that we will 
need to ask for the record. So if you could respond to those, 
we would be very appreciative of that.
    Thank you all very much for your testimonies.
    Thank you, members of the subcommittee, for coming.
    The subcommittee now stands in adjournment.
    [Whereupon, at 3:49 p.m., the subcommittee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                            October 12, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 12, 2011

=======================================================================
     
                  Statement of Hon. Roscoe G. Bartlett

         Chairman, Subcommittee on Tactical Air and Land Forces

                               Hearing on

            National Guard and Reserve Component Acquisition

                           and Modernization

                            October 12, 2011

    Today, the Tactical Air and Land Forces Subcommittee meets 
to receive an update on the equipment status and requirements 
of the Army and Air Force National Guard and Reserve 
Components. Given the significant change in the budget outlook 
for fiscal year 2012 and beyond, we believe it necessary to 
obtain the current views of the Guard and Reserve senior 
leaders for the potential impact on their programs. We will 
also hear from the military services in two subsequent hearings 
later in the month.
    We welcome our distinguished panel of witnesses:

        <bullet> LMajor General Raymond W. Carpenter, the 
        Acting Deputy Director of the Army National Guard,

        <bullet> LLieutenant General Harry M. Wyatt III, 
        Director of the Air National Guard,

        <bullet> LLieutenant General Jack C. Stultz, Chief, 
        U.S. Army Reserve, and

        <bullet> LLieutenant General Charles E. Stenner, Jr., 
        Chief, U.S. Air Force Reserve.

    Major reductions in the Federal budget need to be an 
element of correcting the Federal deficit. The Department of 
Defense must share in a fair and balanced way in those 
reductions. That process is already taking place under the 
Budget Control Act of 2011, with nearly $500 billion in cuts 
planned for DOD over the next 10 years.
    However, cuts beyond that, up to approximately $1 trillion 
over 10 years are possible under what Secretary Panetta has 
called the ``Doomsday Mechanism'' sequestration provision of 
the Budget Control Act.
    Secretary Panetta and Director Lew of the White House 
Office of Management and Budget have stated that budget cuts to 
the Department of Defense as a result of the sequestration 
provision ``could pose a significant risk to national 
security'' and ``DOD would almost certainly be forced to 
furlough large numbers of its civilian workers. Training would 
have to be curtailed, the force reduced, and purchases of 
weapons would have to be cut dramatically.''
    Former Deputy Secretary of Defense William Lynn recently 
stated that the imposition of the sequestration provision of 
the Budget Control Act ``on our Armed Forces could be 
catastrophic. . . . Sequestration would leave us with the 
smallest Army and Marine Corps in decades, the smallest Air 
Force in history, and the smallest Navy since McKinley was 
President. . . . The debate is not whether sequestration would 
wound our military. It is about whether sequestration is 
equivalent to shooting ourselves in the head or the foot.''
    Against the backdrop of the Budget Control Act for 2011, 
today's hearing is to get an assessment of the modernization 
needs and equipping challenges of the Army National Guard, Air 
National Guard, Army Reserve, and Air Force Reserve.
    We recognize the Department is making improvements and 
progress in providing adequate funding to equip the National 
Guard and Reserve Components, to enhance its role as an 
operational reserve. Sustaining this funding, however, will 
continue to be a major issue given the acute national economic 
challenges we currently face.
    During the April hearing the subcommittee learned the 
importance of equipping and resourcing the Reserve Component as 
an ``operational reserve'' rather than the Cold War model of a 
strategic reserve. We also heard our witnesses testify that 
since 2001 the Department has made significant strides in 
providing adequate resources to equip the Reserve Component as 
an operational reserve.
    The Guard and Reserve Components have proven to be an 
invaluable asset during Operation Enduring Freedom, Operation 
Iraqi Freedom and Operation New Dawn. These past 10 years have 
justified the need for an operational Reserve Component force 
that must be adequately manned, trained, and equipped.
    Since September 2001, almost 600,000 guardsmen and 
reservists have deployed in support of combat operations, 
representing 40 percent of the total reserve force of 1.4 
million troops. All 34 Army National Guard combat brigades have 
deployed to either Iraq or Afghanistan and more than half of 
the force have combat experience. There are reservists 
operating in over 100 countries.
    The Army Reserve Components also comprise roughly 74 
percent of all medical units, 80 percent of all transportation 
units, 75 percent of engineer units, and 70 percent of military 
police units in the Army. These are critical combat enablers 
for any type of combat operation.
    The National Guard also has a dual-role responsibility and 
has to be mission-ready to rapidly respond to local, State, and 
Federal emergencies.
    For example, for the Air National Guard, one of their more 
important missions is protecting the homeland through the 
Aerospace Control Alert mission. This mission has not been 
without its challenges--primarily because it was not adequately 
resourced, programmed or budgeted for by the active Air Force.
    Since 2001 the majority of modernization funding for the 
Reserve Components has come from supplemental, overseas 
contingency operation funding requests, meaning funding that is 
not part of the base budget request. What happens when these 
so-called OCO requests are no longer requested or funded? How 
will we continue to sustain the operational reserve and equip 
them for their missions?
    Congress has not hesitated in trying to address the 
equipment readiness needs we have noted in many Guard and 
Reserve units over the years. National Guard and Reserve 
Component procurement from fiscal year 2004 to fiscal year 2011 
has totaled approximately $47.0 billion, averaging almost $6.0 
billion per year.
    Since 2004, Congress has authorized approximately $7.7 
billion in a National Guard and Reserve Equipment Account. The 
National Guard and Reserve Equipment Account helps maintain 
combat capability and should help to guarantee that equipment 
is relevant and upgraded in a timely manner.
    This funding has enjoyed sustained bipartisan support both 
on this committee and throughout Congress.
    The Department of Defense and Congress have made 
substantial progress in terms of adequate funding for and 
reorganization of the Reserve Components, but I am concerned 
that these anticipated budgetary challenges we currently face 
could potentially negatively impact the current operational 
status of the Guard and Reserve.
    The ability to maintain a sustainable operational reserve 
force with sufficient operational capability is predicated on 
having sufficient manpower and adequate resources.
    I want to express how much the subcommittee appreciates the 
contribution of the Guard and Reserve Components and want to 
recognize that they are maintained at a fraction of the cost of 
the regular military. We, as a Nation, clearly cannot fight 
without them because there is no way a 19-year-old can have the 
skill set and experience of a 39-year-old.

                   Statement of Hon. Silvestre Reyes

      Ranking Member, Subcommittee on Tactical Air and Land Forces

                               Hearing on

            National Guard and Reserve Component Acquisition

                           and Modernization

                            October 12, 2011

    This past April, the subcommittee received testimony from 
the leadership of the Army and Air Force Reserve Components. 
Today, we have those same leaders back for an update on the 
equipment needs of the Army and Air Force Reserve Components.
    During the April hearing, we heard that our Reserve 
Components remain as busy as ever, and that the proposed FY 
2012 budget request would allow us to maintain the high-quality 
Reserve forces we have today. We also heard that there were 
additional equipment needs for all the Reserve Components. As a 
result, the full Armed Services Committee bill included $325 
million in additional funding in the National Guard and Reserve 
Equipment Account. The House Appropriators went even further, 
proposing an additional $1.5 billion for this same account, 
while the Senate Appropriators proposed $500 million.
    So, the good news is that it appears that Congress will 
continue to provide support for Guard and Reserve equipment 
needs over and above the budget request.
    On the other hand, the Budget Control Act of 2011 will 
likely result in a substantial cut to the DOD base budget in FY 
2012--perhaps as much as $26 billion. In addition, the Budget 
Control Act mandates approximately $450 billion in additional 
DOD cuts over 10 years, when compared to current DOD 
projections. And finally, if the so-called ``super committee'' 
does not reach its goal of $1.5 trillion in additional 
reductions, the DOD could face additional significant cuts 
starting in FY 2013.
    However, at this point we don't know how DOD will propose 
dealing with these budget reductions. We do know, however, how 
similar cuts have been applied in the past. In previous budget 
reductions, DOD has often taken an ``across-the-board'' 
approach to making cuts, rather than a more focused, thoughtful 
path.
    I am concerned that if an across-the-board, cookie-cutter 
approach to funding reductions takes place the entire force--
including the Reserve Components--will suffer significant 
damage. For example, if the Air Force further reduces fighter 
aircraft fleets in the Active Duty force, will similar cuts 
flow down to the Reserve Components? If Active Duty forces are 
reduced by DOD, are there plans to increase the size of the 
Reserve elements to compensate? If DOD is seeking budget 
efficiencies, does it make sense to strategically expand some 
elements of the Reserve forces? I certainly hope those 
questions are being asked as part of the ongoing DOD 
``strategic review.''
    The Nation has invested billions in additional funding to 
create the highly effective Reserve forces we have today--with 
this subcommittee adding additional billions to that investment 
every year.
    Beyond the immediate needs of our Reserve Components, I 
think it is also critical that we focus on the long term. If we 
get this right, we can end up with a high-quality Reserve force 
that also saves the Nation billions of dollars desperately 
needed elsewhere.
    I look forward to hearing our witnesses' thoughts on these 
major issues facing the entire DOD, but the Reserve Component 
in particular.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 12, 2011

=======================================================================
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 12, 2011

=======================================================================
      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. Given the possibility of major budget cuts to the 
Department of Defense, please discuss your concerns regarding how these 
anticipated cuts would impact the capability of the Guard and Reserve 
Components.
    General Stultz. The Army Reserves is currently resourced at a lower 
per capita rate than any other Army component. While the Army expects 
the Army Reserve to be capable of conducting Full Spectrum Operations 
that capability will not exist if additional investments are not made 
in equipment, personnel and training.
    Additional days for any schooling, professional development, 
combatant command support, exercises and overseas training are over and 
above the statutory level. The statutory requirement for training is 39 
days for the Army Reserve. The current structure of the Army is 
dependent upon the Combat Support and Combat Service Support 
capabilities predominantly resident in the Army Reserve. That 
capability cannot be built and sustained with 39 days of training per 
Soldier per year. The Army Reserves has proven itself in every 
contingency, manmade or natural, for the last two decades. It has done 
so by using limited resources and applying them in an efficient and 
cost effective manner. It must continue to have resources to man, equip 
and train its Soldiers and Units.
    Mr. Bartlett. Have the Army and Air Force decided yet, in response 
to the pending budget cuts, if they will reduce force structures and 
the amount of equipment needed to fill out the brigades and other 
units? If so, to what extent will that help to balance the equipment 
capabilities between the active and Reserve Components? For example, I 
have heard that the number of Abrams tanks (A1) needed overall will be 
reduced and rather than upgrading the A1 AIMs in the Army National 
Guard, they would get the A1 SEPs from the Active Component.
    General Stultz. The Army will have to reduce force structure in 
response to the pending budget cuts. The extent of the overall cut and 
the specific units to cut has not been decided yet. The Army is 
addressing these decisions as part of the ongoing Total Army Analysis 
2014-2018 process. Once the specific reductions are decided the 
equipment requirements will be analyzed to determine what equipment can 
be moved from the Active Component to fill Reserve Component shortages. 
Equipment on-hand levels are similar across the Army Components; 
however, the Army Reserve remains the least modernized at 67%. We are 
hopeful that cascaded equipment from the Active Component will displace 
older equipment in the Army Reserve resulting in improved modernization 
levels.
    Mr. Bartlett. How are other Army and Air Force initiatives, such as 
reset, affecting equipment needed for training and domestic missions?
    General Stultz. Other Army initiatives (e.g. Reset) currently have 
minimal to no impact on Army Reserve Training and Mission execution. 
However, as theater provided equipment is returned, reset and 
redistributed to all components, both equipment on-hand and 
modernization levels should improve. This will enhance our ability to 
train with modernized and compatible equipment.
    Mr. Bartlett. As the Services down-size their inventories of older 
model HMMWVs, is that expected to impact the Army National Guard and 
Army Reserve more than the Active Component?
    General Stultz. No. The Army Reserve supports the acquisition 
strategy for HMMWVs. The AR is 94% equipment on hand for HMMWVs.
    The Army Reserve is 17% armored capable and 83% of non-Armored 
capable. As we divest of these older non-Armored capable models, we 
will work with Army to fill the shortfall with Reset HMMWVs as they 
return from theater. We anticipate that the USAR HMMWV armored-capable 
and reset fleet will increase.
    The Army's tactical wheeled vehicle investment strategy is to 
balance the quantity, quality, and sustainment of the fleet through new 
production, rebalancing and fleet Recapitalization (RECAP). We are 
working with Army to rebalance our fleet and to send older vehicles 
through RECAP programs to provide the AR with the more armored capable 
vehicles to support full spectrum operations.
    AR HMMWV Required: 21,624 On-Hand: 20,334 or 94% On-Hand.

        <bullet>  Up-Armored HMMWV (UAH)--3,051 (15%) of On-Hand

        <bullet>  Extended Capability Vehicle (ECV) (armored)--406 (2%) 
        of On-Hand

        <bullet>  Legacy--8,541 (42%) of On-Hand

        <bullet>  M1097R--8,336 (41%) of On-Hand

    The M1097R is non-armored capable. The RECAP extends the life of 
vehicle. All future RECAP distributions will be Armored Capable. The 
last M1097R was delivered to the AR in FY 10. HMMWV Production was FY 
05-10.

    Mr. Bartlett. Given the possibility of major budget cuts to the 
Department of Defense, please discuss your concerns regarding how these 
anticipated cuts would impact the capability of the Guard and Reserve 
Components.
    General Carpenter. The Army National Guard is capable of executing 
the full spectrum of operations, given the appropriate time and 
resources, and consistently found to be an affordable, effective, and 
efficient component of the Army's Operational force. Major budget cuts 
would adversely impact the Army National Guard's capabilities across a 
broad spectrum of functional areas. Below are the immediate capability 
concerns:
    Personnel: The Army National Guard has refined its capacity to 
provide ready, trained, and equipped forces to the Army since 9/11 by 
recruiting and retaining a quality campaign force. The Army National 
Guard continues to provide the Army a vehicle by which critical force 
structure and personnel are retained at a significant savings (the Army 
National Guard operating budget is pennies on the dollar when compared 
to the Active Component). However, major budget cuts will reduce 
capabilities across every personnel management sector, which in turn 
adversely affects the depth and breadth of the Army National Guard's 
domestic and global capabilities in support of the Operational Force.
    Medical: Medical readiness is a critical component of attaining the 
personnel readiness status required by the Department of the Army for 
deployable units. Without appropriate levels of medical readiness 
funding, the Army National Guard will not be able to provide medically 
ready Soldiers or units to support State and Federal operations in 
accordance with Department of Defense requirements and regulations in 
the following areas:

          1. The Army National Guard will be unable to reach regulatory 
        goals for mandated dental and medical requirements, which then 
        decreases the number of fully medically ready Soldiers and 
        units the Army National Guard can provide for Federal or State 
        missions.

          2. Lack of funding will significantly and negatively impact 
        important occupational health requirements.

          3. Major funding cuts will directly impact the ability of the 
        Army National Guard to provide specialized Case Management to 
        mitigate service connected injuries sustained by the force 
        following the previous ten years of sustained war.

          4. Funding cuts will impact the ability of the Army National 
        Guard to maintain medical readiness data repository and 
        reporting systems.

          5. The ability of the ARNG to train for and meet the recently 
        proven domestic standard of trauma and critical care will be 
        eliminated. Fifty-six percent of Army medical evacuation assets 
        reside in the Army National Guard.

    Family Support: Army National Guard Soldiers and families face 
unique challenges in accessing services due to the geographic 
dispersion unique to this service component. Budget cuts to existing 
Soldier and Family Support programs will further impair the capability 
of the Army National Guard to provide baseline services in support of 
State and Federal roles. In addition to adversely affecting support to 
geo-dispersed Army Soldiers outside the footprint of the Active 
Component installations, the following capabilities will significantly 
degrade by cuts across these programs:

          1. Family Assistance Centers: a vital resource to National 
        Guard families. They are the Reserve Component equivalent of 
        the installation-based Army Community Services and these 
        locations (more than 380) cover the gap in services between an 
        active duty installation and the 2,900 Army National Guard 
        communities.

          2. Family Readiness Support Assistants: support traditional, 
        drilling Army National Guard units with full-time support, 
        assistance to unit Family Readiness Groups, and enhanced family 
        readiness throughout the Deployment Support Cycle.

          3. Resilience programs: improve the abilities of Citizen-
        Soldiers to train, deploy, and reintegrate effectively by 
        applying enhanced coping skills and the awareness of post-
        deployment challenges.

          4. Risk reduction and mitigation programs: suicide 
        prevention, substance abuse prevention/response, and sexual 
        assault prevention remain underfunded for the Army National 
        Guard and are vital to readiness. In many cases, the minimal 
        expense for prevention and basic substance abuse or behavioral 
        health treatment options provides a significant return on 
        investment when compared to the training and replacement costs 
        for Soldiers with service-related issues. Resource reductions 
        in these areas will increase recruiting and training costs 
        because quality Soldiers will not be retained.

    Aviation: All Army National Guard rotary-wing airframes are being 
replaced or upgraded. Reduced funding may cause aircraft fielding 
delays or cancellations, which increases long-term fleet costs for the 
aging airframes maintained in our inventory. Major budget cuts will 
result in a decreased ability to support Army National Guard aviation 
missions and readiness reductions for fiscal year 2012 and beyond.
    Training: Army National Guard unit readiness is predicated on 
trained Soldiers. (Individuals are qualified in their military 
occupational specialties, critical functional skills, and for Officers 
and Non-commissioned Officers, timely completion of required 
professional military education). Major budget cuts to the Army 
National Guard will cause the number of Duty Military Occupational 
Specialty Qualified Soldiers in the Guard to fall potentially impacting 
unit mobilizations without additional post mobilization time and 
resources. In fiscal year 2012, Army National Guard requirements for 
individual training were funded at only 64 percent (Army National Guard 
received $496 million to meet a $771 million training requirement). The 
current funding gap results in critical skills training shortfalls, 
increased backlogs for professional military education, and military 
occupational specialty qualifications. Further budget cuts could impact 
the Army National Guard's ability to provide ready units in support of 
operational requirements at home and abroad, placing the Nation at 
risk.
    Logistics: Cuts in Ground Operations Tempo funds impact the day-to-
day operations of all Army National Guard units, as well as the 
collective training for units designated in upcoming rotations for the 
Army Force Generation Model strategy. Major budget cuts would result in 
the degradation of mission execution across numerous logistics venues: 
depot-level maintenance, reset operations, the National Maintenance 
Program, unit Readiness Reporting, calibration monitoring for sensitive 
equipment, repairing tactical wheeled vehicles to fill critical 
shortages, and tracking Army ``payments'' back to the Army National 
Guard for equipment the Army requested to remain in theater after 
national Guard deployments (Department of Defense Directive 1225.6). 
Further budget cuts impact the Guard's ability to purchase repair 
parts. For example, many weapons systems fall below required readiness 
levels if repair parts are not in place in a timely fashion. Overseas 
Contingency Operations Reset funding cuts can be highlighted by the 
following:

          1. A 15 percent reset budget reduction equates to five Army 
        National Guard Brigade Combat Team equivalents failing to 
        achieve Field Level Reset in 365 days.

          2. A 30 percent reset budget reduction equates to nine Army 
        National Guard Brigade Combat Team equivalents failing to 
        achieve Field Level Reset in 365 days.

          3. A 40 percent reset budget reduction equates to eleven Army 
        National Guard Brigade Combat Team equivalents failing to 
        achieve Field Level Reset in 365 days.

    The Army National Guard brings a broad array of capabilities to the 
Nation's defense--all for a minimal cost--at home and abroad. We 
understand each component must continue to provide services at the 
highest level even with planned budget decreases. However, major cuts 
to the already proportionally smaller Army National Guard budget would 
slice deep into our dual-mission capabilities and adversely affect the 
Nation at home and abroad.
    Mr. Bartlett. Have the Army and Air Force decided yet, in response 
to the pending budget cuts, if they will reduce force structures and 
the amount of equipment needed to fill out the brigades and other 
units? If so, to what extent will that help to balance the equipment 
capabilities between the Active and Reserve Components? For example, I 
have heard that the number of Abrams tanks (A1) needed overall will be 
reduced and rather than upgrading the A1 AIMs in the Army National 
Guard, they would get the A1 SEPs from the Active Component.
    General Carpenter. The Army is currently examining force structure 
changes, and anticipates releasing a complete analysis in the second 
quarter of fiscal year 2012. The Army analysis will determine the 
proper mix of organizations required to comprise a balanced and 
affordable force necessary to meet the guidance issued by the 
President, Congress, Office of the Secretary of Defense, and Army 
leadership. Once the Army Analysis is complete, the Army will then 
determine any potential equipment modernization impacts, to include the 
Combat Vehicles for the Army National Guard.
    Mr. Bartlett. How are other Army and Air Force initiatives, such as 
reset, affecting equipment needed for training and domestic missions?
    General Carpenter. Since 9-11, the Army National Guard operates at 
a pace unlike any other time in its history. The current strategic 
environment places high demands on both personnel and equipment. The 
Army National Guard continues to be a resilient and committed 
professional component in the Army's Operational Force. Unfortunately, 
the Total Force is out of balance and must Reset to restore personnel 
and equipment capabilities for future missions. Reset establishes a 
balanced process after an extended deployment. It systematically 
restores deployed units to a level of personnel and equipment readiness 
that permits the resumption of training for future missions. The fully 
implemented Reset model will accelerate reconstitution of the force, 
increase unit readiness, and improve preparation for next-to-deploy 
units. Reset improves the readiness of the force, increases training 
time on unit equipment prior to deployment, and demonstrates good 
stewardship of funding. Equipment readiness is key to the Army National 
Guard's Reset Strategy and vital to the Army's efforts to build 
sufficient strategic flexibility and operational depth to deal with 
unforeseen contingencies. In a strategic environment of uncertainty and 
unpredictability, it is imperative that the Army National Guard 
supports these efforts by accurately tracking and reporting equipment 
repair, replacement, recapitalization, and expenditures to ensure the 
Army sustains equipment readiness at a rate that meets or exceeds 
operational demand.
    Mr. Bartlett. Earlier this year, the Army announced the 
cancellation of the Surface-Launched Advanced Medium-Range Air-to-Air 
Missile (SLAMRAAM) program. The SLAMRAAM program was scheduled to 
replace the old Norwegian Advanced Surface-to-Air Missile System 
(NASAMS), which is currently being used in defense of the National 
Capital Region (NCR). What impact, if any, does the cancellation have 
on the National Guard units conducting the NCR mission?
    General Carpenter. The impact of Surface-Launched Advanced Medium-
Range Air-to-Air Missile program cancellation on the Army National 
Guard is that a replacement for the Norwegian Advanced Surface-to-Air 
Missile System for the National Capital Region Mission is still 
undetermined. The contract for the Norwegian Advanced Surface-to-Air 
Missile System ends in fiscal year 2017. The Army National Guard 
Avenger rebuild program is scheduled through fiscal year 2015; while 
Avenger sustainment concludes in fiscal year 2018, and currently no 
decision to extend either program. There are only small levels of 
modernization planned for the Avenger platform and no planned 
replacement currently identified.
    Mr. Bartlett. The Army National Guard operates more than 800 Black 
Hawk helicopters for both domestic and overseas missions. However, as 
you know, more than 500 of these are the older ``A'' models, which are 
quickly becoming obsolete. The active Army is slated to receive funding 
for at least 75 new UH-60M and HH-60M Black Hawk helicopters in FY2012, 
and only 4 of those 75 will go to the Guard, despite the fact that they 
fulfill 40 percent of the missions. Can you talk about the current 
state of the Black Hawk fleet and the impact that using older Black 
Hawks and not receiving the newer ``M'' models will have on the Army 
Guard?
    General Carpenter. The Army National Guard is programmed to receive 
six (6) HH-60M Black Hawk aircraft to complete a twelve (12) aircraft 
company requirement in fiscal year 2012. The Army National Guard's 
position with the Army states that sourcing and deployments guide 
fielding plans to ensure units operating in combat areas are equipped 
with the newest and most capable aircraft. In terms of costs, the UH-
60A is more expensive to operate per flight hour, less modern, and more 
difficult to maintain than the HH-60M. Conversions of UH-60A aircraft 
to UH-60L models, a cascade of UH-60Ls from the Active Component, and 
fielding of the newer UH-60Ms will retire most of the remaining UH-60A 
model aircraft in the Army National Guard. As long additional budget 
cuts do not reduce the number of UH-60A to UH-60L conversions or UH/HH-
60M procurements, the current plan to retire Army National Guard UH-
60As will conclude roughly in 2023.
    Mr. Bartlett. The current Department of the Army plan is to divest 
all Army National Guard C-23 Sherpas by 2015. What impact will this 
have on the ability of the Army National Guard to respond to domestic 
situations, as well as the overseas mission, where the Sherpa has been 
heavily used to provide intra-theatre airlift?
    General Carpenter. The current Army plan will reduce the number of 
Army National Guard fixed wing aircraft available for domestic 
operations from 114 aircraft to 64, or potentially as low as 48 
aircraft. This plan also includes the divestiture of 42 C-23 Sherpas. 
The Army approach to domestic fixed wing requirements is one in which 
the Army National Guard utilizes those Army National Guard fixed wing 
assets not deployed in federal service.
    These facts, coupled with the Air National Guard fielding of C-27J 
aircraft to replace Army National Guard C-23s, the likelihood of Air 
National Guard deployments with their C-27Js, and the extensive 
equipment training requirements for this aircraft will limit routine 
Army National Guard logistical support requirements, as well as Army 
Service-specific missions. Airframe inventory reductions and diminished 
access to fixed wing capabilities decreases Army National Guard 
capabilities for future domestic operations and catastrophic incidents.
    Mr. Bartlett. In 2010, Army Materiel Command outlined a plan for 
the drastic reduction/elimination of the National Guard's participation 
in the National Maintenance Program by 2013. Do you agree with this 
decision? Do you believe the National Guard's participation in the 
National Maintenance Program offers the potential for further cost 
savings, enhanced performance and mission accomplishment?
    General Carpenter. National Maintenance Program is a reimbursable, 
requirements driven program designed to save the Army money by using 
excess maintenance capacity. Since requirements vary annually based on 
Army Working Capital Fund supply requirements, the Army National 
Guard's participation would fluctuate as well. Therefore, it is 
advisable to view the Army National Guard's participation on a 
percentile basis of the total annual National Maintenance Management 
program. The fiscal year 2010 Army National Guard share was 18.2 
percent. The fiscal year 2011 Army National Guard share is at 24.97 
percent (as of 31 May 2011). The fiscal year 2012 projection ranges 
from 19 to 25 percent. The Army National Guard has not received fiscal 
year 2013 National Maintenance Management program projections.
    Army Materiel Command seeks to maximize their efficiencies through 
increased work at depots, and repeatedly stated that this will occur 
when economically prudent. The Army National Guard has a collaborative 
relationship with Army Materiel Command, one built on quality service 
and products at reasonable prices. The Army National Guard, through the 
National Maintenance Program, has a proven surge capability for Army 
Materiel Command.
    Mr. Bartlett. To what extent do Guard and Reserve units get to 
operate and train with Up-Armored HMWWVs and MRAP class vehicles? Other 
than when they deploy overseas, do they have any need for tactical 
wheeled vehicles with high levels of protection?
    General Carpenter. Units do not have Up-Armored HMWWVs or MRAPs in 
the continental United States, and most of the actual vehicles are in 
theater. The Army National Guard does, however, use simulators which 
focus on how to survive vehicle rollovers, and driver trainers which 
simulate multiple vehicles to include MRAP variants, Tanks and 
Strikers. The driver trainers focus on driving and maneuvering through 
cities and off-road as part of convoys, route clearance missions etc.
    Mr. Bartlett. As the Services down-size their inventories of older 
model HMMWVs, is that expected to impact the Army National Guard and 
Army Reserve more than the Active Component?
    General Carpenter. No, the down-sizing of older model HMMWV 
inventories will not impact the Army National Guard more than the 
Active Component Army. The Army National Guard achieved 100 percent 
Equipment On Hand during fiscal year 2011 and the Army National Guard 
up-armored HMMWV rate is commensurate with the Active Army. However, 
the Army National Guard will still retain approximately 4,000 legacy 
HMMWVs after downsizing.

    Mr. Bartlett. Given the possibility of major budget cuts to the 
Department of Defense, please discuss your concerns regarding how these 
anticipated cuts would impact the capability of the Guard and Reserve 
Components.
    General Wyatt. The Air Force plans and programs for its components 
as a Total Force and ensures the same level of readiness across the 
entire force. Any major budget cuts have a potential of greatly 
affecting the equipping and readiness of the Air Reserve Components. 
The Air National Guard is deeply concerned that any additional budget 
demands have the potential to severely degrade of its overall 
capability. Due to an already lean business model, the Air National 
Guard is able to operate with less than 6-percent of the Total Air 
Force Budget, while representing more than 34-percent of overall 
capability.
    For perspective, for 2011, the Air National Guard has supported 
worldwide contingencies with more than 6,000 deployed per month. In 
addition, on October 1, 2011, there were 3,434 Guard Airmen actively 
engaged in homeland defense and support to civil authorities including 
protecting American skies through Aerospace Control Alert, assisting 
with critical infrastructure protection, and assisting their local 
communities with disaster recovery in North and South Dakota, Missouri, 
and Nebraska. This also includes 578 Guard Airmen supporting local and 
national counterdrug programs and 121 Airmen assisting the US Border 
Patrol on our southwest border. Air National Guard Modular Aerial Fire 
Fighting units dropped 20,000 gallons of fire retardant supporting the 
National Forestry Service in the Southwest. This level of contribution 
is provided with less than two-cents on every dollar spent on defense.
    Mr. Bartlett. Have the Army and Air Force decided yet, in response 
to the pending budget cuts, if they will reduce force structures and 
the amount of equipment needed to fill out the brigades and other 
units? If so, to what extent will that help to balance the equipment 
capabilities between the Active and Reserve Components? For example, I 
have heard that the number of Abrams tanks (A1) needed overall will be 
reduced and rather than upgrading the A1 AIMs in the Army National 
Guard, they would get the A1 SEPs from the Active Component.
    General Wyatt. The Secretary of the Air Force has produced plans to 
reduce the number of weapon systems throughout the Air National Guard 
(ANG). While this reduces the number of aircraft and support equipment 
in the ANG, it does not create any sort of equipment equity between the 
Active Component and the ANG, rather it will reduce the ANG's overall 
capability. Furthermore, the plan creates potential barriers for the 
National Guard to support its domestic requirements.
    Mr. Bartlett. How are other Army and Air Force initiatives, such as 
reset, affecting equipment needed for training and domestic missions?
    General Wyatt. The House Armed Services Committee was recently 
briefed on the status of Aviation Assets for the National Guard on 1 
June 2011 in accordance with House report 111-49-257. In addition, 
concerns from the Chief, National Guard Bureau that Department of 
Defense programmatic decisions may have degraded National Guard 
aviation capabilities to adequately support Homeland Defense/Defense 
Support to Civil Authorities (HD/DSCA) missions prompted the Chief to 
request a Capabilities Based Assessment to analyze the National Guard 
aviation capability and its support for Domestic Operations. Air 
National Guard staff is guiding the assigned Capabilities Based 
Assessment, but because of the sheer size and scope of the study, it 
has been outsourced for commercial contract. The Capabilities Based 
Assessment to analyze the National Guard aviation capability is 
currently in the contracting process and is expected to be completed 
240 days from contract signature. Once the Capabilities Based 
Assessment is complete, the National Guard should be able to provide 
the House Armed Services Committee a clearer picture of the National 
Guard's capability to support Domestic Operations. The following 
observations have been made:

        <bullet>  Programmed changes to domestic airlift present the 
        most eminent impact for successful completion of current and 
        future domestic operations missions. Since 2005, and with 
        current programmed reductions in FY11 and FY12, the Air 
        National Guard will have lost 22% of its C-130 fleet, 226 
        aircraft, down to 175.

        <bullet>  Mission requirements and demands levied on the NG 
        routinely are difficult to codify as to which missions are 
        requirements and which are demands. The NG has requirements 
        that are federally recognized, defined by joint and service 
        doctrine and demands only defined by National Guard Regulation.

        <bullet>  A New Madrid Earthquake scenario could create an 
        estimated need of 1000 C-130 sorties for aero-medical 
        evacuation alone. This is in addition to moving our CBRN 
        Enterprises, supplies and equipment.

        <bullet>  National Guard Aviation assets currently available to 
        supply major military support to civilian authorities are 
        stressed to meet all emergency response requirements and 
        scenarios.
    Mr. Bartlett. Recently, the Air Force has concluded that its 
requirement for fighter aircraft has been reduced from 2,200 in 2008, 
to 2,000 in 2010. How will that reduction of 200 aircraft affect the 
Air National Guard's ability to perform the Aerospace Control Alert 
(ACA) mission?
    General Wyatt. The reduction in fighter aircraft does not directly 
affect the Air National Guard's ability to perform the ACA mission. The 
Air National Guard has the ability to manage the reductions to prevent 
ACA locations from losing aircraft and making the reductions at non-ACA 
locations.
    Mr. Bartlett. We understand that the Air National Guard operates 16 
of 18 Aerospace Control Alert (ACA) sites and that by 2013, retirements 
of F-16 aircraft will affect 10 of 18 ACA sites. Are plans in place to 
replace the retiring force structure for all of the Air National 
Guard's ACA sites?
    General Wyatt. The Air National Guard (ANG) operates 17 of 18 ACA 
sites. Currently, there are no ANG programmatic retirements of F-16 
aircraft in 2013; however the F-15s and F-16s executing the mission at 
these sites are the oldest in the in Air Force's inventory. The F-22s 
that replaced the F-15Cs at Hickam AFB, HI, and the F-35s scheduled to 
replace the F-16s at Burlington, VT are the only two planned 5th 
generation ANG bases. Analysis indicates there will be sufficient ACA 
capable aircraft to accomplish the ACA mission for the foreseeable 
future; however, presently there is not a specific plan to recapitalize 
ANG ACA units with 4th and 5th generation aircraft.
    If in the future, there are fighter force structure changes that 
affect ANG ACA units, the Air Force needs to produce a well articulated 
recapitalization plan. The ANG requires a concurrent and balanced 
recapitalization approach if America is to maintain air dominance over 
our sovereign skies.
    Mr. Bartlett. The recent Mobility Capabilities Requirements Study 
identified an overmatch in C-130 tactical airlift force structure. How 
will future reductions affect ANG units? Have you, the Adjutants 
General, and Governors been consulted on potential future force 
reductions?
    General Wyatt. If the Air Force C-130 fleet is reduced, there will 
be a reduction to the ANG C-130 units as well. To further complicate C-
130 reductions, the Active Component vs. Reserve Component C-130 
distribution, or ``AC/RC mix'' debate continues.
    Due to the sensitive and pre-decisional nature of future program 
deliberations, Adjutants General and Governors are not consulted. 
However, consistent with the National Guard Bureau's statutory 
responsibility of providing advice on the federalized and non-
federalized National Guard, I was consulted on the Air Force's FY13 POM 
position.
    Mr. Bartlett. Given the acknowledged importance of the Aerospace 
Control Alert (ACA) mission, why do the readiness ratings of ACA units 
not reflect their ACA mission? What is being done to insure that 
readiness assessments and inspections include the ACA mission?
    General Wyatt. The readiness ratings of ACA units are not directly 
shown due to the lack of a formal and complete tasking process to 
account for this combatant command requirement in the Global Force 
Management/Joint Operations Planning and Execution System process. The 
ACA mission does not have the manpower and equipment specific details 
normally used in the process Combatant Commanders use to request 
forces. This missing information hides the level of effort for this 
tasking and makes ACA specific accounting difficult. Currently, an 
effort to garner this specific information from the combatant command 
through the force providers is underway. Once accomplished, the level 
of effort necessary for this tasking will be reflected in the already 
existing readiness system. By formalizing this process, we will have 
the ability to show each ACA unit's level of commitment to the mission 
and also provide information about the remaining capacity at each unit 
for additional tasking.
    Mr. Bartlett. O&M costs (flying hour costs) vary by aircraft type 
as do the overall costs to operate any given aircraft between the 
Active Air Force and the Reserve Component. If an aircraft costs more 
to fly but is flown less by more experienced pilots in the Reserve 
Component, wouldn't it make fiscal sense to put those aircraft in the 
Air National Guard rather than the Active Air Force? And, wouldn't we 
get a longer lifetime out of those aircraft this way?
    General Wyatt. This is a scenario based question based upon the 
aircrew readiness of the fleet's aircrews and the pilot management of 
the fleet and therefore, out of the Air National Guard's purview. 
However, given that the Reserve Component could squeeze aircrew 
training efficiencies out of its Rated Aircrew Program (RAP), then the 
weapon system would ultimately be cheaper and last longer in the Guard 
or Reserve. Historically, the Reserve Component has enjoyed more 
experienced aircrew than the Active Component and has been able to 
schedule fewer training sorties to maintain flying qualification.
    Mr. Bartlett. The Air Force ``Strategic Basing'' Process (AFI 10-
503) is used to make basing and bed down decisions for current and 
future weapon systems. There are 21 representatives who sit on this 
steering group, including representatives from Air Force Public Affairs 
and Air Force Legislative Liaison . . . but only ``one'' representative 
from the Air National Guard (NGB/CF). Considering the fact that the Air 
National Guard represents 43 percent of the air-refueling mission, 33 
percent of the fighter mission, 30 percent of the cargo and transport 
mission, 20 percent of the remotely piloted aircraft mission, and 20 
percent of the distributive common ground station mission, in your 
opinion, does the Air National Guard have an equitable voice in this 
process?
    General Wyatt. Yes. Each member of the Air Staff has a single 
representative on the steering committee. Numbers of representatives 
are not proportional to mission percentages, however no voting takes 
place. The current system makes it imperative that one builds a 
consensus among the other members of the steering group in order to get 
basing action approval. As a force provider, the Air National Guard 
normally gains major command (MAJCOM) support for the missions that are 
in the best interest of the MAJCOM. As a result, the Air National Guard 
is able to obtain appropriate and sufficient support to obtain approval 
for necessary Air National Guard basing actions.
    Mr. Bartlett. We often hear from the Air Force that the Air 
National Guard is not ``accessible.'' What do they mean by this? Has 
the Air National Guard ever turned down a request from the Air Force to 
fulfill a mission? And, on average, how many aircraft does the Air 
National Guard provide to combatant commanders compared to the Active 
Air Force?
    General Wyatt. Accessibility is often misunderstood and we continue 
to educate Air Force senior leaders on how to access the Air National 
Guard. In our view, there are three components to accessibility:

        <bullet>  Law: Voluntary mobilization--the ANG has historically 
        fulfilled more than 85% of requests through volunteerism. 
        Involuntary mobilization--full or partial--allows for 
        unencumbered access.

        <bullet>  Policy: Currently established through SECDEF 
        memorandum and places minimal restrictions on access.

        <bullet>  Funding: The ANG is funded to train and prepare for 
        its federal mission; therefore access to the ANG requires 
        allocation of resources through Military Personnel 
        Appropriation Days.

    The Air National Guard is accessible. To date, we have answered 
every request for forces with more than 85% volunteerism. On average, 
we provide 25% of Air Force capability used to meet Combatant Commander 
requirements. Some examples Air National Guard accessibility: within 
six minutes of the terrorist attacks on 9/11 Air National Guard 
aircraft were airborne protecting America's skies. On 17 March 2011, 
the United Nations passed the no-fly resolution for Libya. Air National 
Guard tanker aircraft were the first on station, and within 48 hours, 
Air National Guard tankers were flying missions and provided 14 of the 
24 tanker aircraft involved in the effort.
    Mr. Bartlett. We are hearing that the Active Air Force may be 
planning significant retirements of ANG aircraft (all C-5As, 3 F-16 
wings, 72 C-130s--many of which are in the Guard, and some number of A-
10s) and terminating the acquisition of C-27J aircraft as a possible 
response to proposed defense budget cuts, especially if the cuts exceed 
the $400 billion mark over 10-12 years. Has the Guard been actively 
involved or consulted regarding these possible cuts? And, if so, how 
would the loss of these aircraft affect the ANG, and what alternative 
missions is the Air Force offering to ensure the highly trained men and 
women who currently operate these aircraft have a new mission?
    General Wyatt. Air Force budget deliberations are ongoing. We are 
hopeful that the Air National Guard's proven lean business model, the 
age of its equipment and its contribution to the Total Force will be 
considered as the Air Force seeks solutions in this greatly constrained 
budget environment. Any major budget cuts have a potential of greatly 
affecting the equipping and readiness of the Air Reserve Components. 
The Air National Guard is deeply concerned that any additional budget 
demands have the potential to severely degrade of its overall 
capability. Due to an already lean business model, the Air National 
Guard is able to operate with less than 6-percent of the Total Air 
Force Budget, while representing more than 34-percent of overall 
capability.

    Mr. Bartlett. Given the possibility of major budget cuts to the 
Department of Defense, please discuss your concerns regarding how these 
anticipated cuts would impact the capability of the Guard and Reserve 
Components.
    General Stenner. Depending on where cuts were targeted in the 
language of the NDAA and Defense Appropriations, major budget cuts 
could impact the capability of the Air Force Reserve. Cuts to reduce 
manpower costs would result in lower participation in military airlift, 
combat air forces, space and ISR missions. It could also potentially 
eliminate Air Force Reserve contributions in entire mission areas. 
Force structure reductions to aircraft would immediately affect the 
targeted mission area (airlift, combat, etc.) and drive personnel 
cross-training and relocation costs.
    Lower ``life cycle costs'' achieved through part-time duty, a 
delayed points-based retirement system, and lower healthcare costs 
ensure combat capability at reduced costs.
    Rebalancing the Active Component/Reserve Component mix toward the 
Reserve Component would reap immediate savings. The Citizen-Airman 
model has served the Air Force well for over 60 years, and expanded use 
of this construct will provide more combat capability for lower cost in 
this fiscally constrained environment.
    Mr. Bartlett. Have the Army and Air Force decided yet, in response 
to the pending budget cuts, if they will reduce force structures and 
the amount of equipment needed to fill out the brigades and other 
units? If so, to what extent will that help to balance the equipment 
capabilities between the Active and Reserve Components? For example, I 
have heard that the number of Abrams tanks (A1) needed overall will be 
reduced and rather than upgrading the A1 AIMs in the Army National 
Guard, they would get the A1 SEPs from the Active Component.
    General Stenner. With regards to Air Force Reserve (AFR) readiness 
and equipment modernization--any budget-driven force structure 
reductions will be accomplished through the Air Force corporate process 
and will balance the needs of war-fighters, combatant commands, the 
national military strategy, and the AFR. The Air Force corporate 
process takes into account the vast experience of our Citizen-Airmen 
and ensures the cuts do not disproportionally benefit one component to 
the detriment of another. AFR Airmen provide the same capability as 
Active Component Airmen, and we will continue to do so as the USAF maps 
out its modernization and recapitalization plans.
    Mr. Bartlett. How are other Army and Air Force initiatives, such as 
reset, affecting equipment needed for training and domestic missions?
    General Stenner. In order to Recapitalize Infrastructure, meet 
Emerging Mission/TFI Requirements, and meet the Air Force's 20/20 by 
2020 Facilities and Energy Goals, the Air Force Reserve requires $125M 
in MILCON per year. Additionally, $200M in O&M per year is required for 
Facility Sustainment, Restoration, and Modernization to recapitalize 
infrastructure and support new missions through adaptive re-use of 
existing facilities.
    In these economic times, we fully understand that difficult 
budgetary decisions must be made. In 2007, AFRC instituted a program we 
call FOCUS (Facilities Operational Capabilities Utilization Survey) to 
independently validate our real facility requirements and guide 
decisions on where to get the greatest return on investment. This 
program has validated $1.24 Billion backlog in unfunded MILCON 
requirements supporting on-going AFRC missions, as well as improved 
resource utilization through Total Force Integration initiatives with 
our Active Duty and Air National Guard partners.
    Underfunding AFRC MILCON has increased our average facility 
recapitalization rate for FY11-15 to 376 years, a 33 percent increase 
above last year's projection.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. I know you are given your equipment by Army and Air 
Force, so with this in mind:
    With the Reserve Components taking on a huge volume of deployments, 
weekend training is crucial. If our warriors are being asked to deploy 
into the fight, and they were trained on anything other than the exact 
same equipment they will use in theater (other than minor differences), 
this is an unacceptable situation. If this is the case, I have to 
wonder how valuable their training really is. Granted not every UTA 
involves operational training, but when operational training does 
occur, are we giving them the best, most applicable training that we 
can give them? There is no argument that they deserve our very best.
    We all know that the Reserve Components are vital to the success of 
our national defense efforts, but I ask you are we setting our warriors 
up for failure if we are training them on sub-standard equipment?
    General Stultz. No, we are not setting our Soldiers up for failure.
    The Army Reserve equipment modernization rate is currently at 67% 
and with funding in the base POM and through the National Guard and 
Reserve Equipment Appropriation we are working towards reaching the 
100% modernization goal.
    Training on exactly the same equipment we'll use in theater is 
certainly the optimal solution. Soldiers use the most up-to-date 
equipment available to the Army Reserve at Annual Training exercises 
just prior to mobilization. In conjunction with US Army Forces Command 
and the Army Service Component Commanders, the Army Reserve ensures 
that our Soldiers receive training on the most up-to-date, but limited 
supply, items at the post-mobilization sites or in theater prior to 
assuming their operational mission.
    The Army Reserve continues to improve its use of both low and high 
fidelity simulators to train Soldiers on the latest equipment 
available. Low-fidelity simulators focus on operator controls and 
generic safety procedures while high-fidelity simulators allow multiple 
simulators to work together in a virtual world allowing equipment 
operators and their leaders to plan and execute missions. These 
simulators are cheaper than actual equipment, are generally available 
as Commercial off the Shelf, and can be used at Unit Training Assembly 
sites/Reserve Centers without major facility improvements. As with 
actual equipment, funding shortfalls hinder our fielding of simulators 
to each unit.

    Mrs. Roby. I know you are given your equipment by Army and Air 
Force, so with this in mind:
    With the Reserve Components taking on a huge volume of deployments, 
weekend training is crucial. If our warriors are being asked to deploy 
into the fight, and they were trained on anything other than the exact 
same equipment they will use in theater (other than minor differences), 
this is an unacceptable situation. If this is the case, I have to 
wonder how valuable their training really is. Granted not every UTA 
involves operational training, but when operational training does 
occur, are we giving them the best, most applicable training that we 
can give them? There is no argument that they deserve our very best.
    We all know that the Reserve Components are vital to the success of 
our national defense efforts, but I ask you are we setting our warriors 
up for failure if we are training them on sub-standard equipment?
    General Carpenter. Training on the exact equipment used in an 
operational situation absolutely enhances the Army National Guard 
training experience. When the Army National Guard lacks the modernized 
equipment used during deployments, pre-mobilization readiness and 
``boots on the ground'' time can be affected. The recent increase in 
both quality and numbers of Army equipment transferred to the Army 
National Guard greatly aid in rapidly building and maintaining pre-
deployment readiness standards--consistent with a fully operational 
force. However, tactical training on similar equipment still has value 
and the Army National Guard trains on any and all available equipment.

    Mrs. Roby. I know you are given your equipment by Army and Air 
Force, so with this in mind:
    With the Reserve Components taking on a huge volume of deployments, 
weekend training is crucial. If our warriors are being asked to deploy 
into the fight, and they were trained on anything other than the exact 
same equipment they will use in theater (other than minor differences), 
this is an unacceptable situation. If this is the case, I have to 
wonder how valuable their training really is. Granted not every UTA 
involves operational training, but when operational training does 
occur, are we giving them the best, most applicable training that we 
can give them? There is no argument that they deserve our very best.
    We all know that the Reserve Components are vital to the success of 
our national defense efforts, but I ask you are we setting our warriors 
up for failure if we are training them on sub-standard equipment?
    General Wyatt. In order to Recapitalize Infrastructure, meet 
Emerging Mission/TFI Requirements, and meet the Air Force's 20/20 by 
2020 Facilities and Energy Goals, the Air Force Reserve requires $125M 
in MILCON per year. Additionally, $200M in O&M per year is required for 
Facility Sustainment, Restoration, and Modernization to recapitalize 
infrastructure and support new missions through adaptive re-use of 
existing facilities.
    In these economic times, we fully understand that difficult 
budgetary decisions must be made. In 2007, AFRC instituted a program we 
call FOCUS (Facilities Operational Capabilities Utilization Survey) to 
independently validate our real facility requirements and guide 
decisions on where to get the greatest return on investment. This 
program has validated $1.24 Billion backlog in unfunded MILCON 
requirements supporting on-going AFRC missions, as well as improved 
resource utilization through Total Force Integration initiatives with 
our Active Duty and Air National Guard partners.
    Underfunding AFRC MILCON has increased our average facility 
recapitalization rate for FY11-15 to 376 years, a 33 percent increase 
above last year's projection.

    Mrs. Roby. I know you are given your equipment by Army and Air 
Force, so with this in mind:
    With the Reserve Components taking on a huge volume of deployments, 
weekend training is crucial. If our warriors are being asked to deploy 
into the fight, and they were trained on anything other than the exact 
same equipment they will use in theater (other than minor differences), 
this is an unacceptable situation. If this is the case, I have to 
wonder how valuable their training really is. Granted not every UTA 
involves operational training, but when operational training does 
occur, are we giving them the best, most applicable training that we 
can give them? There is no argument that they deserve our very best.
    We all know that the Reserve Components are vital to the success of 
our national defense efforts, but I ask you are we setting our warriors 
up for failure if we are training them on sub-standard equipment?
    General Stenner. Air Force reservists train and deploy with the 
same equipment. In some instances our equipment is older than the 
Active Component's. However, it is well maintained due to the highly 
experienced Citizen-Airmen who often work on the same equipment their 
entire career. This personal investment pays off with Air Force Reserve 
mission-capable rates among the highest in the Air Force.

                                  <all>

</pre></body></html>
